         Semiannual Report to the Congress
                                        Number 15
                 April 1, 1996 - September 30, 1996




Office of Inspector General
                     National Science Foundation
                   Prepared by:

     Office of Inspector General
    National Science Foundation

   For additional copies, write:

      Office of Inspector General
          4201 Wilson Boulevard
             Arlington, VA 22230

For additional information, call:

                            Audit
                   Investigations
                 (703) 306-2001

                        Oversight
         (including misconduct in
        science and inspections)
                           Legal
                  (703) 306-2100

        Electronic Mail Hotline
                    oig@nsf.gov
             Letter to the National Science Board
                                and the Congress

This report describes our activities and accomplishments from April through September 1996.
Section 5 of the Inspector General Act of 1978, as amended, requires that the National Science
Board transmit this report to the Congress within 30 days of its receipt along with any comments
the Board may wish to make.

We worked hard in this reporting period to compensate for work lost during the FY 1996 agency
closure. In October 1996, just after the close of this reporting period, we contracted with a
private-sector accounting firm for services necessary to audit the financial statements NSF will
prepare under the Chief Financial Officers Act. We expect to complete our first audit of the
financial statements by March 1997. We have also begun incorporating the management and
performance approaches articulated in the Government Performance and Results Act into our
audits and oversight reviews. Here, our aim is to help the Foundation monitor, and, when
appropriate, improve programmatic and managerial performance.

NSF has a new acting Deputy Director, Dr. Joseph Bordogna. We join the agency in expressing
our appreciation to him for his willingness to serve in this capacity and, in particular, for his
interest in the OIG’s activities. We look forward to working with him and other NSF staff as we
meet the challenges and take advantage of the opportunities that present themselves in this fiscal
year.




Linda G. Sundro
Inspector General
October 31, 1996
                                                   Executive Summary
Financial Audits                                   Investigations
We identified over $30 million in funds that       Investigations resulted in the return of over
can be better used to support research and         $250,000 in grant funds. To prevent further
education, and we documented $500,000 in           abuse in the federal excess property program,
questioned costs (pages 67 and 68).                NSF will implement procedures to ensure that
                                                   proceeds from the sale of excess property are
Most states do not impose sales taxes on           used to support scientific and educational
universities that purchase equipment with NSF      projects (page 24).
funds, but five states do charge sales taxes.
By legally avoiding state sales taxes, NSF’s       Three cases pending at the Department of
funded institutions can reallocate more than       Justice involve companies that received
$20 million over 5 years to support research       funding under the Small Business Innovation
and education (page 2).                            Research Program (page 28).

NSF could meet goals imposed by the                Oversight Activities
Government Performance and Results Act and         Including Inspections
save about $1.5 million per year by making
most information about the Agency and its          NSF management will incorporate into new
programs available via the Internet, rather than   regulations a conflict-of-interest rule that will
the printed page. Most funds saved could be        prevent program officers from negotiating
reallocated directly to research (page 5).         with NSF officials about grants or any other
                                                   matter for 1 year after leaving NSF (page 50).
By reducing incidental costs, an astronomy
observatory can realize over $1 million in cost    Our first inspection involving NSF’s support
savings (page 8).                                  of a State’s Experimental Program to Stimu-
                                                   late Competitive Research identified many
Misconduct in Science                              indicators of success. However, we did
                                                   recommend that NSF and the State mutually
We reviewed safeguards NSF has in place to         establish measures for results and that the
resolve misconduct allegations (page 34).          State’s fiscal agent execute subcontract agree-
                                                   ments with participant institutions (page 54).
We referred two reports with recommen-
dations for findings of misconduct in science      An inspection of an Urban Systemic Initiative
to NSF’s Deputy Director for adjudication,         found that NSF closely monitored the
and the Deputy Director issued findings of         awardee’s efforts to improve science and
misconduct in two reports we sent in an earlier    mathematics education. But, the inspection
period (pages 37 and 42).                          also raised questions about how the awardee
                                                   calculated and monitored its cost sharing and
                                                   participant support commitments (page 58).
                         Table Of Contents


1    Audit

23   Investigations

33   Oversight

67   Audit Reports Issued With Recommendations
     for Better Use of Funds

68   Audit Reports Issued With Questioned Costs

69   Additional Performance Measure

72   List of Reports

77   Audit Reports With Outstanding Management
     Decisions
Acronyms
ADP      Advanced Development Program
AOR      Authorized Organizational Representative
BIO      Directorate for Biological Sciences
COLA     Cost of Living Allowance
DAS      Division of Administrative Services
DCAA     Defense Contract Audit Agency
DGA      Division of Grants and Agreements
DoEd     Department of Education
DoD      Department of Defense
EHR      Directorate for Education and Human Resources
EPSCoR   Experimental Program to Stimulate Competitive Research
FBI      Federal Bureau of Investigation
FFRDC    Federally Funded Research and Development Center
GAO      General Accounting Office
GPRA     Government Performance and Results Act
GRT      Graduate Research Traineeship award
GSA      General Services Administration
HBCU     Historically Black Colleges and Universities
HHS      Department of Health and Human Services
HRD      Human Resource Development
HRM      Division of Human Resources
IDB      Information Dissemination Branch
INS      Immigration and Naturalization Service
NAFTA    North American Free Trade Agreement
NIH      National Institutes of Health
NOAA     National Oceanic and Atmospheric Administration
OCR      Office of Civil Rights
ODP      Ocean Drilling Project
OGE      Office of Government Ethics
OMB      Office of Management and Budget
ORI      Office of Research Integrity
PAR      Personnel Activity Report
PCIE     President’s Council on Integrity and Efficiency
PI       Principal Investigator
SBE      Directorate for Social, Behavioral, and Economic Sciences
SBIR     Small Business Innovation Research
TN       Trade NAFTA visa
USI      Urban Systemic Initiative
                                            Reporting Requirements
This table cross-references the reporting requirements prescribed by the Inspector General
Act of 1978, as amended, to the specific pages in the reports where they are addressed.

 Requirements                                                                          Page

 Section 4(a)(2)    Review of Legislation and Regulation                            Throughout

 Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                  Throughout

 Section 5(a)(2)    Recommendations With Respect to Significant Problems,           Throughout
                    Abuses and Deficiencies

 Section 5(a)(3)    Prior Significant Recommendations on Which Corrective Action        77
                    Has Not Been Completed

 Section 5(a)(4)    Matters Referred to Prosecutive Authorities                         24

 Section 5(a)(5)    Summary of Instances Where                                     None to Report
                    Information Was Refused                                         This Period

 Section 5(a)(6)    List of Audit Reports                                               72

 Section 5(a)(7)    Summary of Each Particularly Significant Report                 Throughout

 Section 5(a)(8)    Statistical Table Showing Number of Reports and Dollar Value        68
                    of Questioned Costs

 Section 5(a)(9)    Statistical Table Showing Number of Reports and Dollar Value        67
                    of Recommendations That Funds Be Put to Better Use

 Section 5(a)(10)   Summary of Each Audit Issued Before This Reporting Period           77
                    for Which No Management Decision Was Made by The End of
                    the Reporting Period

 Section 5(a)(11)   Significant Management Decisions That Were Revised             None to Report
                                                                                    This Period

 Section 5(a)(12)   Significant Management Decisions With Which The Inspector      None to Report
                    General Disagrees                                               This Period
                              AUDIT
         The Office of Audit is responsible for auditing grants,
       contracts, and cooperative agreements funded by NSF’s
       programs. It reviews agency operations and ensures that
       financial, administrative, and program aspects of agency
          operations are reviewed. It also conducts the annual
         audit of NSF’s financial statements, which encompass
       approximately $3.2 billion. The Office evaluates internal
         controls, reviews data processing systems, and follows
       up on the implementation of recommendations included
          in audit reports. In addition, the Office assists in the
         financial, internal control, and compliance portions of
        OIG inspections. All audit reports are referred to NSF
         management for action or information. The Office of
             Audit advises and assists NSF in resolving audit
           recommendations. The Office also acts as a liaison
        between NSF and audit groups from the private sector
            and other federal agencies by arranging for special
        reviews, obtaining information, and providing technical
       advice. The Office of Audit provides speakers and staff
         assistance at seminars and courses sponsored by NSF
          and other federal agencies and at related professional
                          and scientific meetings.




Semiannual Report Number 15      8          NSF Office of Inspector General
PROMOTING EFFICIENT USE OF NSF FUNDS
One of OIG’s fundamental objectives under the Inspector General Act is to help NSF increase the
cost-effectiveness of its expenditures. Specifically, the Inspector General Act requires that we
“provide leadership and coordination and recommend policies for activities designed to promote
economy, efficiency, and effectiveness in the administration of ” NSF’s programs and operations.
Such activities will be increasingly important as budgetary pressures mount.


By Avoiding Sales Taxes, NSF’s                        Disparities in State Sales Tax Payments
Funded Institutions Can Use More
                                                    Only five states require that their colleges and
Grant Funds to Support Research
                                                    universities pay sales taxes, and one of those
We estimate that, during FY 1994, at least
                                                    states is responsible for more than 80 percent
$4.2 million was charged to NSF awards for
                                                    of state sales taxes charged to NSF awards.
state sales taxes. The Comptroller General
                                                    Applicants for NSF assistance from these five
has determined that it is permissible to use
                                                    states must add state sales tax costs to their
federal grant funds to pay state sales taxes as
                                                    budgets when they submit proposals to NSF.
long as sales tax payments are not expressly
                                                    Since proposals for funding are evaluated both
prohibited by the terms of the grant agree-
                                                    on their cost and the strength of their research
ment. Since payment of sales taxes does
                                                    programs, the competitive disadvantage of
nothing to directly further research and educa-
                                                    having to increase the size of the budget to
tion in science and engineering, we conducted
                                                    pay state sales taxes is evident.
a review to determine how sales taxes could
legally be avoided to use grant funds for           Some proposal reviewers affiliated with insti-
purposes that would further NSF’s objectives.       tutions in states that do not levy sales taxes on
Legal avoidance of state sales taxes would          colleges and universities have commented
enable NSF to save approximately $20 million        negatively in their reviews about the inclusion
in program funds over 5 years. We concluded         of state sales taxes in proposal budgets sub-
that there are several mechanisms that could        mitted by colleagues affiliated with institutions
be used to achieve this goal, without imposing      that are subject to such taxes. The distorting
undue burdens either on NSF’s program staff         effect of state sales tax payments on research
or on NSF’s funded institutions.                    budgets is particularly apparent when research


Semiannual Report Number 15                    9              NSF Office of Inspector General
collaborations include some institutions that          universities to absorb or legally avoid these
are subject to state sales taxes and some not.         taxes is outweighed by the cost savings to
For one project we reviewed, NSF paid an               NSF and the removal of the competitive
additional $140,000 for state sales tax to one         disadvantage associated with the evaluation of
institution, while no state sales tax was paid         proposals whose budgets include sales tax
on comparable work for the same project at an          expenses.
institution in a different state. We believe it
                                                       The necessity to absorb state sales tax
would be equitable for NSF management to
                                                       payments would encourage NSF’s awardees
attempt to remove this competitive
                                                       to use creative strategies to legally avoid these
disadvantage for institutions in the states
                                                       tax payments. NSF program staff can be
subject to sales tax.
                                                       helpful to grantees in developing these
Some awardees have demonstrated that they              strategies. For example, an awardee might,
understand the importance of structuring large         with the concurrence of NSF program staff,
transactions to minimize sales tax payments;           choose to avoid sales taxes by structuring a
however, the cumulative amount of sales tax            major equipment purchase so that title vests in
paid on smaller purchases is also substantial.         NSF, rather than in the awardee.
We estimate that about one-third of the sales
                                                       We also recommended that NSF modify its
taxes paid are associated with the purchase of
                                                       approach to cost sharing when state sales tax
materials and supplies. The cumulative effect
                                                       costs are included in an award budget. NSF
of sales taxes on small purchases is more likely
                                                       presently imposes a 1-percent cost-sharing
to be recognized by institutions that handle
                                                       requirement on all unsolicited grants, and
many projects, than by individuals who are PIs
                                                       some NSF programs have much higher cost-
on a particular project.
                                                       sharing requirements. We recommended that
    Avoiding State Sales Tax Payments                  NSF allow grantee institutions the option of
We recommended to NSF that state sales tax             counting sales tax payments toward meeting
payments be expressly excluded as an allow-            their cost-sharing requirements. This could
able cost under NSF awards. We believe the             encourage awardees who choose to pay
burden placed on grantees in the five states           (rather than legally avoid) the state sales tax to
that levy sales taxes on their colleges and            contribute that amount from nonfederal


Semiannual Report Number 15                       10             NSF Office of Inspector General
sources. We recognize, however, that                            Avoiding Trade Duties
institutions that choose to cost share state        During our review of state sales taxes charged
sales tax payments might then reduce other          under NSF awards, we learned of a related
kinds of cost sharing by comparable amounts.        situation in which NSF funds might have been
We encouraged NSF to consider carefully the         used to pay import duties to the U.S.
elements of proposed cost sharing when              Department of the Treasury. Import duties of
evaluating proposals for funding.                   $1.1 million were estimated for parts of a
                                                    state-of-the-art, high-performance telescope
We recommended that NSF send an Important
                                                    (to be built in the United States by an
Notice to awardee institutions encouraging
                                                    international partnership) that are being made
them to become familiar with, and to take
                                                    or assembled overseas. Payment of this tariff
advantage of, existing exemptions from state
                                                    would have transferred $1.1 million of NSF
sales taxes. Finally, we recommended that
                                                    funds to the Department of the Treasury to
NSF pursue federal and state legislative
                                                    further no purpose associated with science or
remedies to exempt purchases under NSF
                                                    engineering. We recommended that NSF
awards from state sales taxes.
                                                    management pursue a legislative remedy to
If these recommendations are implemented,           avoid payment of this tariff, and they did so.
we estimate that, beginning in FY 1997, NSF         At the end of the reporting period, as part of
would be able to allocate over $4 million in        the Miscellaneous Trade and Technical
additional funds annually for science and           Corrections Act of 1996, legislation was
engineering research and education. NSF             enacted that exempted the telescope project
management is reviewing our                         from tariff duties.
recommendations.




Semiannual Report Number 15                    11             NSF Office of Inspector General
By Disseminating Information                           that each agency “establish goals for
Primarily on the Internet, NSF Can                     improving the efficiency and effectiveness of
Allocate Substantial Additional
                                                       agency operations and, as appropriate, the
Funds to Science
                                                       delivery of services to the public through the
Electronic Information Dissemination as a
            Goal Under GPRA                            effective use of information technology.”

The Government Performance and Results Act             Accordingly, we conducted a review designed

(GPRA) does not define the Inspector                   to suggest ways of applying GPRA principles

General’s role in the agency’s strategic               to information dissemination at NSF.

planning or goal-setting processes. The Office
                                                       NSF deserves substantial credit for making a
of Management and Budget (OMB) has,
                                                       large amount of information available both via
however, encouraged Inspectors General to
                                                       its World Wide Web page and the Science and
work with their agencies in identifying
                                                       Technology Information System. It has also
achievable and quantifiable goals that will
                                                       devoted significant resources to FastLane, the
materially improve both program performance
                                                       project to build an electronic proposal
and internal management. While it is difficult
                                                       submission process. However, to date, these
to set goals under GPRA that track the
                                                       efforts have not translated into significant cost
success of NSF-funded research and education
                                                       savings because electronic systems have
activities, it is easier to specify goals related to
                                                       largely supplemented and not replaced paper
the increased efficiency and effective
                                                       documents.
management of the agency. These include
activities that seek to improve communication          We reviewed NSF’s publishing activities, with

with awardees, applicants for assistance, and          a particular focus on electronic publishing.

other “customers” as well as those that                We found that NSF, the agency most

expedite award actions. GPRA contemplates              responsible for promoting the expansion of the

that improvements in this area will include            Internet, still relies primarily on mailing

actions that provide effective service to              printed documents—at an annual cost of

customers while containing or reducing the             approximately $1.9 million for printing and

cost to the government. Building on GPRA               $1.3 million for postage—to disseminate

principles, the Information Technology                 information about its programs. Our review

Management Reform Act of 1996 requires                 indicated that the Information Dissemination


Semiannual Report Number 15                      12              NSF Office of Inspector General
Branch (IDB) of the Division of                      We believe a situation such as this—where an
Administrative Services (DAS) has taken              administrative support component of the
many steps to reduce printing and postage            agency cannot implement actions that would
costs and increase the efficiency, efficacy, and     result in significant cost savings and increased
quality of the service IDB provides for NSF.         efficacy without explicit approval of the
IDB is preparing to provide Internet versions        agency’s most senior managers—lends itself
of virtually any document NSF publishes, but         well to fully articulated GPRA goals.
a decision about how to publish and
                                                     Accordingly, we recommended that NSF
disseminate any document is made by the
                                                     establish an agency-wide goal of reducing the
individual program, not IDB.
                                                     quantity of printed program announcements
Applicants for NSF’s awards are, as a segment        and other printed information by at least 50
of the nation’s population, arguably more            percent by the beginning of FY 2001. We
“wired” than any other. We identified three          estimate that such a reduction would provide
programs that have begun converting to               savings of more than $1.5 million annually in
electronic information dissemination, and they       printing and postage costs, which could be
anticipate reductions in printing and mailing        used in other ways to more directly support
costs of 40 to 100 percent. However, because         science and engineering research and
IDB only prints and mails what it is directed to     education.
by other NSF components, more substantial
                                                     Further, we recommended that NSF consider
cost savings through conversion to electronic
                                                     formalizing this goal by publicly committing to
dissemination can only be achieved by
                                                     it through the GPRA process. NSF’s long-
initiatives beyond IDB’s purview.
                                                     term GPRA strategic plan should include
                                                     specific goals for each NSF division, leading
                                                     to the achievement of the agency-wide goal
                                                     over the next 3 fiscal years. NSF management
                                                     is reviewing our recommendations.




Semiannual Report Number 15                     13            NSF Office of Inspector General
Ocean Drilling Project to Achieve Savings             In this reporting period, ODP accepted a
    by Increasing Use of Electronic
                                                      recommendation by its international advisory
      Information Dissemination
                                                      committees to implement an alternative plan
In Semiannual Report Number 14 (page 6),
                                                      that will expand electronic access while
we reported on our review of the Ocean
                                                      maintaining some printed volumes. This
Drilling Program (ODP). ODP spends
                                                      approach will not save as much as contem-
approximately $2.1 million annually on its
                                                      plated by our recommendations, but ODP
publications—which are published by the ODP
                                                      anticipates that, once implemented, it will save
awardee, entirely separately from NSF’s
                                                      approximately $0.8 million annually by the
publications. We recommended that ODP
                                                      time it is fully implemented in FY 1999, which
modify its publication activities to phase out
                                                      works out to $4 million over a 5-year planning
one publication (the Scientific Results)
                                                      period.
altogether and convert the other (the Initial
Reports) exclusively to an electronic version
available on CD-ROM and over the Internet.
We estimated that ODP could save more than
$1 million annually beginning in FY 1999.
Because ODP is a cooperative international
project, NSF management forwarded our                      Funds to Be Put to Better Use
recommendations for consideration by the                   Funds the Office of Inspector
                                                            General has identified in an
appropriate international advisory committees.
                                                             audit recommendation that
                                                           could be used more efficiently
                                                                by reducing outlays,
                                                            deobligating funds, avoiding
                                                           unnecessary expenditures, or
                                                               taking other efficiency
                                                                      measures.




Semiannual Report Number 15                      14             NSF Office of Inspector General
Over $1 Million in Cost Savings                                  Overseas Allowance
at an Observatory Can Be Made                       The observatory pays an allowance to its staff
Available for Science and
                                                    overseas. The allowance is composed of an
Engineering
                                                    expatriation premium factor and a differential
Our audit responsibilities include oversight of
                                                    cost of living allowance (COLA). The expatri-
five Federally Funded Research and Develop-
                                                    ation premium factor is used to “facilitate the
ment Centers (FFRDC) including two
                                                    recruitment and retention of high quality scien-
astronomy observatories. During this
                                                    tific and technical staff members at an isolated
reporting period, we conducted a review of
                                                    overseas post.” The COLA compensates expa-
one of these FFRDCs, which is an
                                                    triates for the higher costs of living overseas.
observatory. The observatory, which is a
national research center for ground-based              Savings Associated With the Expatriation
astronomy and solar physics, is managed and         Premium Factor. We recommended that the
operated by a private association of                observatory eliminate the expatriation
universities and has three observing sites (two     premium factor it pays its U.S. staff members
located in the United States and one located        who work overseas. We recommended this
overseas). The observatory provides                 elimination because the observatory’s location
astronomers and research institutions with          cannot be considered a hardship or danger
facilities, services, and support to conduct        post, and the average length of service
research in astronomy and related fields. We        suggests that there is no need to provide staff
found four areas where the observatory could        members with incentives to remain overseas.
reduce incidental costs without eliminating         The observatory agreed that our finding had
essential services. By reducing these costs,        merit for long-term staff members and will ask
the observatory could increase funds that are       the consultant who is reevaluating its current
available for science. Observatory manage-          compensation practices to propose a new
ment agreed with over $1.3 million in cost          approach. We expect the observatory to save
savings. Implementation of all of our               $168,583 a year and $842,915 over 5 years.
recommendations would save $2.2 million.




Semiannual Report Number 15                    15             NSF Office of Inspector General
   Savings Associated With the COLA. We               As of June 4, 1996, the specialized rate was
believe the rate the observatory used to              63 percent lower than the standard rate the
calculate the COLA was too high since it was          observatory was using. We estimated that, if
based on inaccurate length of service and             the observatory uses this specialized rate,
purchasing assumptions. To calculate a                which more accurately reflects the experience
COLA, a retail pricing survey is conducted            and knowledge of its staff overseas, the
overseas. Prices for goods and services               observatory could realize $141,189 in cost
identified in the survey are then compared to         savings a year and $705,945 over 5 years.
the prices for the same or similar goods and          Observatory management disagreed with the
services in the United States.                        recommended reduction in the COLA paid to
                                                      its overseas staff but indicated that it might
A standard cost of living rate is usually used
                                                      consider a partial reduction in the COLA,
for new employees who are unfamiliar with an
                                                      using an alternate rate calculated by the
overseas post. We recommended that the
                                                      Department of State. If the observatory uses
observatory begin using a specialized rate that
                                                      the Department of State’s cost of living rates
is much lower than the standard rate it was
                                                      for private U.S. citizens overseas, the savings
using. The specialized rate was calculated by
                                                      would total $70,595 a year and $352,975 over
the same international services company that
                                                      5 years.
provided the observatory its cost of living
data. This specialized rate targets those
employees who have been overseas for some
time and have acquired the sufficient language
skills and knowledge of the country’s customs
to know where to purchase goods and services
at less expensive commercial outlets. We
found that the average length of service of
observatory staff overseas was more than 10
years. Observatory staff also have access to
the U.S. embassy commissary for items that
are not available in the local market.



Semiannual Report Number 15                      16              NSF Office of Inspector General
        Government-Owned Housing                                         Newsletter
The observatory has 29 tenants that occupy            The observatory publishes a quarterly news-
government-owned houses at 1 of its U.S.              letter that provides information about its
facilities; 24 of the tenants are observatory         activities. About 1,925 newsletters are mailed
staff members. These 24 tenants represent             to subscribers free-of-charge each quarter, and
about one-half of the employees who work at           an electronic version is available on the Inter-
the facility. The rental rates the observatory        net. We recommended that the observatory
computed were less than those that comply             provide only the electronic version of the
with OMB Circular A-45, Rental and                    newsletter. Observatory management agreed
Construction of Government Quarters. As a             to consider eliminating the summer edition of
result of our recommendations, the                    the newsletter and to work on expanding the
observatory will increase its rental revenue by       capabilities of the electronic version. When
$95,640 over 5 years. However, the                    that work is complete, observatory
observatory disagreed with an additional              management will solicit the views of users
$57,480 in recommended rate increases.                about eliminating the paper copy altogether.
                                                      Elimination of the summer edition of the
                  Meal Costs
                                                      newsletter should save $11,197 a year and
Staff members at one of the U.S. sites are
                                                      $55,985 over 5 years. If the observatory
provided free meals in the observatory’s
                                                      eliminates the paper copy altogether, cost
kitchen facilities. We believe sound business
                                                      savings would total an additional $36,331 over
practices justify free meals only for those
                                                      5 years.
employees the observatory requires to remain
at work overnight. All other employees                We forwarded our memorandum and the
should pay for their meals. Therefore, we             observatory’s response to our
recommended that the observatory charge               recommendations to NSF management. NSF
employees for meal costs. We estimate that, if        management will make the final resolution on
the observatory charged appropriate staff for         these findings.
meals, it would earn an extra $381,765 over 5
years. Observatory management disagreed
with our recommendation, citing management
policy and employer convenience.


Semiannual Report Number 15                      17              NSF Office of Inspector General
OTHER AUDITS OF ORGANIZATIONS
THAT RECEIVE NSF FUNDING
We select organizations and awards for review based on a preliminary assessment of whether it
appears these organizations would have difficulty complying with regulations that govern the use
of federal funds. By using risk assessment principles, we try to identify those organizations or
programs that have the greatest risk for financial irregularities and provide opportunities for the
greatest dollar recoveries. This section describes audits of NSF awardees conducted in this
reporting period that involve significant questioned costs.

                                                     had been spent. Most of the questioned costs,
Private Educational Institution
Did Not Accomplish Objectives of                     $265,846 from both awards, involved claimed
NSF Awards                                           personnel costs. The organization could not

We audited two education awards to a private,        explain how these funds had been used.

nonprofit organization that administers a
                                                     The organization did not complete most of the
children’s museum and provides other
                                                     educational materials it had proposed for the
educational programs for children. One award,
                                                     larger award, and it did not finish the
which had a $480,540 budget, was to support
                                                     documentation for the smaller award.
the development of learning materials for
                                                     Although the organization sometimes obtained
elementary school students. The other award,
                                                     the assistance of consultants to work on the
which had a $31,767 budget, was to videotape
                                                     awards, the consultants did not finish the
and publish the proceedings of a conference
                                                     projects because they were told there was no
on children’s museums.
                                                     money to pay them. We believe the

We concluded that the organization’s                 organization’s inability to pay its consultants

management of these awards was not                   and accomplish the awards’ goals suggests

acceptable and questioned $337,377 from              that the NSF funds were used for other

both awards. The organization commingled             purposes.

NSF funds with funds from other sources in a
                                                     We learned that, despite its poor
general account, and its recordkeeping was
                                                     recordkeeping and financial management, the
insufficient. In fact, the organization could not
                                                     organization spent $362,047 to hire a private
tell us how a large portion of the NSF funds


Semiannual Report Number 15                    18              NSF Office of Inspector General
accounting firm. We also learned that the          costs and therefore it might be forced to close
organization had named NSF as a projected          the children’s museum if it is required to make
source of repayment of a large bank loan in        this reimbursement. We have no authority to
documents it provided to the bank when it          forgive a debt owed to NSF and, accordingly,
applied for the loan. We inferred that             referred these issues to NSF management for
personnel costs the organization claimed—          resolution.
from a grant provided by NSF to fund science
                                                   Museum Claims Excessive Indirect
education—were used to defray the costs of
                                                   Costs
the accounting firm and to make payments on
                                                   NSF awarded $1,963,176 to a museum and its
the bank loan.
                                                   partners to enhance the teaching of science,
We recommended that the organization               mathematics, and technology by drawing upon
promptly return the $337,377 we questioned         the resources of science-rich institutions and
to NSF. We also recommended that NSF take          related businesses and industry. Our review of
action to ensure that the organization does not    the grant identified material weaknesses and
receive any more NSF funds until it has an         $105,108 in questioned costs. The results of
appropriate accounting system in place and         our audit are summarized below.
has reimbursed NSF for the questioned costs
                                                   The partners did not maintain time and
from its previous awards.
                                                   attendance systems that complied with OMB
The organization, now under different              regulations. Also, a member recovered
management, did not dispute our findings and       $16,578 twice, once by charging the grant a
could not provide further information on the       program fee and once by claiming the same
use of the NSF funds. The organization             costs again as indirect costs. The partners
explained that it had implemented a new            overclaimed indirect costs by $72,708 either
financial management system and retained new       because they claimed indirect costs based on
accountants and other personnel to properly        budgeted rather than actual amounts or
manage any funds received in the future. The       because they calculated indirect costs at a rate
                                                   that exceeded the NSF-approved rate. We
organization also stated that it does not have
                                                   questioned an additional $15,822 because of
funds to reimburse NSF for the questioned
                                                   errors in computing wages and fringe benefits


Semiannual Report Number 15                   19            NSF Office of Inspector General
and costs that were inappropriately charged to
the grant. NSF will address the questioned
costs with the grantee during audit resolution.

Contractor Reduces Claim Against
the Government
NSF awarded a contract to assemble, process,
store, and ship cargo to on-site facilities in
Antarctica. The contractor was also
responsible for maintaining the supplies,
equipment, research labs, and offices that were
on-site.

The contractor submitted a final invoice for                 Questioned Cost
the contract for $341,299. The invoice                    A cost resulting from an
included $222,191 in workers’ compensation                alleged violation of law,
                                                        regulation, or the terms and
costs for four employees who incurred injuries             conditions of the grant,
while working on the contract. A portion of              cooperative agreement, or
                                                       other document governing the
the contractor’s claim was for workers’
                                                        expenditure of funds. A cost
compensation reserves that were never used to             can also be “questioned”
cover actual costs. Based on our                      because it is not supported by
                                                        adequate documentation or
recommendation, the contractor agreed to              because funds have been used
reduce its final claim by $58,381, the amount          for a purpose that appears to
                                                             be unnecessary or
of the unused reserves.
                                                               unreasonable.




Semiannual Report Number 15                      20      NSF Office of Inspector General
CONTINUED REVIEWS OF
SIGNIFICANT ISSUES
Fees Paid to Nonprofit Atmospheric                   We suggested that, as new agreements
Research Organization Continue to                    between the nonprofit organization and the
Grow and Result in Questioned Costs
                                                     agencies are negotiated, no new fees be
In Semiannual Report Number 14 (page 14),            approved. We provided as an alternative to
we provided information on the management            paying no fees, a possible capping of fees at
fees a nonprofit atmospheric research organi-        the same percentage NSF pays the nonprofit
zation was billing to federal agencies that          organization. The capping of fees would save
support research at that organization. We            approximately $5.8 million.
conducted the review on behalf of federal
                                                     The Inspector General for the Department of
agencies because NSF provides this organiza-
                                                     Commerce concurred with our recommenda-
tion more funds than any other federal agency
                                                     tions and forwarded that concurrence to the
and, so, has overall audit responsibility for this
                                                     National Oceanic and Atmospheric Adminis-
FFRDC.
                                                     tration (NOAA), the agency that provided the
The organization asked other federal agencies        awards to the nonprofit organization. In
to pay a fee based on a percentage of the            response, NOAA stated that it decided to
award. In some cases, this fee was as high as        authorize the payment of a management fee
3 percent of the total amount of the award.          “subject to the three percent limitation and any
We estimated that, under this arrangement,           statutory prohibitions on the use of Federal
fees the government pays will total                  assistance funds.” Because there is no
approximately $6 million over the next 5             legislative prohibition on the payment of fees
years. Because the organization already              to the organization, this will result in NOAA
receives funding for the direct and indirect         paying the organization $3.2 million over the
costs of research, we recommended that the           next 5 years. Other agencies advise us that
practice of charging this fee be discontinued.       they are still reviewing this matter. We will
We referred our findings to the Inspectors           continue to discuss the payment of the fee
General at the agencies affected by these fees.      with the other affected agencies.




Semiannual Report Number 15                    21             NSF Office of Inspector General
Because the organization will continue to           In this instance, the organization purchased
receive substantial fees from the government,       equipment with federal fees and charged the
we evaluated the institution’s uses of the fees     government for depreciation costs for that
once they were collected. The fees are placed       equipment. Since the organization receives 90
in the organization’s general fund. The             percent of its support from federal agencies,
general fund also includes dues from members        we estimate that it recoups 90 percent of the
of the organization and income from                 equipment costs from federal agencies by
intellectual property. Because the revenues in      including the depreciation costs in its indirect
the general fund are commingled, we could           cost pools.
not determine the amount of federal funds
                                                    The organization confirmed this practice. The
used for each expenditure from the general
                                                    organization advised us that “Regarding the
fund. However, we estimate that fees the
                                                    depreciation of general purpose equipment
organization receives from the government
                                                    (i.e. digital communications equipment,
account for at least half of the organization’s
                                                    telephone switching equipment, etc), [the
general fund revenue. In 1995, the
                                                    organization] has used it’s [sic] reserves (i.e.
organization used this revenue, which was in
                                                    general fund) to finance the purchase of such
large part provided by the government, to
                                                    equipment and has recovered the costs
purchase $741,000 in equipment. The
                                                    through depreciation expenditures to the
organization also charged federal awards for
                                                    appropriate indirect cost pool.”
the cost of depreciating this equipment.

                                                    To ensure that the government does not pay
Under federal accounting principles, a grant
                                                    for the same equipment more than once, we
recipient may charge depreciation for general
                                                    recommended that NSF not allow the organi-
purpose equipment as an indirect cost on
                                                    zation to charge depreciation for the equip-
federal awards. Recovering the costs of
                                                    ment as an indirect cost on federal awards.
equipment by charging depreciation to an
                                                    We also recommended that NSF require that
indirect cost pool is allowable and appropriate
                                                    the organization account separately for
as long as the government did not originally
                                                    management fees provided by federal agencies
pay for the equipment.
                                                    and review these accounts and the uses of the
                                                    fees at least annually. NSF management


Semiannual Report Number 15                    22             NSF Office of Inspector General
decided to discuss the matter with the              2 years, and awardees receive five NSF pay-
organization before responding to our               ments over the 2-year period if they can
recommendations.
                                                    continue to demonstrate adequate technical
                                                    progress. We reviewed estimated costs

Five Small Business Awards Require                  incurred by 32 Phase II awardees in their first
Additional Oversight                                of four Semiannual Reports (October 1, 1995,

The objective of NSF’s Small Business Inno-         through March 31, 1996). Specifically, we

vation Research (SBIR) program, which is 1          reviewed estimated costs related to salaries

of 11 federal SBIR programs, is to increase         and fringe benefits, subcontractor costs,

the incentive and opportunity for small firms       consultant costs, equipment costs, and indirect

to undertake cutting-edge, high risk, and high      costs to identify potential problems before

quality scientific, engineering, or science/        significant award funds were spent. Of

engineering education research that would           $336,800 in claimed costs, we identified over

have a high potential economic payoff if the        $77,700 in questionable expenditures by five

research is successful. NSF issues SBIR             SBIR awardees in the first semiannual

awards in two phases. Phase I awards provide        reporting period.

up to $75,000 to determine the scientific,
                                                    • Four awardees charged $36,337 more to
technical, and commercial merit and feasibility
                                                      their grants for salary costs than they had
of ideas. Phase II awards provide up to
                                                      originally proposed. For example, one
$300,000 to pursue ideas developed during
                                                      awardee charged the salary costs of a senior
Phase I.
                                                      associate using a salary rate that exceeded

NSF has always issued predetermined, fixed-           the proposed salary rate by 32 percent,

amount awards under Phase I. At the end of            which resulted in $19,000 in excessive

FY 1995, NSF extended the fixed-amount                salary costs.

award concept to Phase II awards. Under
                                                    • Three awardees charged excessive indirect
fixed-amount awards, NSF agrees to provide a
                                                      costs to their awards that NSF did not
specific level of support assuming adequate
                                                      anticipate. For example, one awardee
technical progress. Each Phase II award is for
                                                      calculated indirect costs by applying a 53-



Semiannual Report Number 15                    23            NSF Office of Inspector General
  percent rate to total direct costs rather than   purposes that NSF did not anticipate when it
  applying a 16.7-percent rate to senior           issued the awards. We recommended that
  personnel salaries, which resulted in            SBIR program staff determine the reasons for
  $16,000 in excessive indirect costs. As a        the increased costs and evaluate the effect the
  result, $35,691 that was intended to directly    increased costs had on the awards’ objectives.
  support the research projects was instead        We also recommended that, if necessary,
  applied to indirect costs.                       awards be terminated, suspended, or reduced
                                                   to ensure that award funds are expended in a
• Two awardees calculated fixed fees at
                                                   manner that efficiently and effectively supports
  higher percentages than the percentages
                                                   the goals of the SBIR program. NSF
  they proposed, which accounted for $3,550
                                                   management is reviewing our
  in excessive costs. One awardee charged
                                                   recommendations.
  $2,900 in fixed fees to the award by
  applying a 7-percent rate to total costs         Our Investigations Section is also reviewing
  instead of a 2.2-percent rate, as proposed in    the actions of several SBIR companies. Those
  the budget.                                      investigations are described on page 28 of this
                                                   Report.
• One awardee incurred $2,200 in consultant
  costs based on charges that exceeded the         A-133 Audits Beginning to Identify
  maximum allowable daily rate authorized by       Cost Sharing as an Issue
  Congress. The awardee paid a consultant          As part of the federal single audit activities,
  $1,000 per day, which exceeded the $443          we receive, review, and accept audits con-
  maximum daily rate.                              ducted by an institution’s auditors as long as
                                                   the auditors comply with the guidelines in
As a result of these findings, we question
                                                   OMB Circular A-133, Audits of Institutions of
whether adequate funds will be available to
                                                   Higher Education and Other Non-Profit
complete the proposed research. We estimate
                                                   Institutions. In these audits, the auditors
that, if the current charging practices continue
                                                   sample transactions and form opinions on
over the remaining life of the five awards,
                                                   compliance with federal requirements and
almost $300,000 (20 percent of the value of
                                                   internal controls. Only issues considered
the five awards) will have been spent for
                                                   material to the institution’s overall financial


Semiannual Report Number 15                   24             NSF Office of Inspector General
position are identified in the financial               ted in the statements. We do know that, in the
statements.                                            last 6 months, we reviewed six A-133 audit
                                                       reports that identified cost-sharing as an issue
Many of the grants NSF awards contain cost-
                                                       at institutions that receive approximately $70
sharing requirements. These requirements ob-
                                                       million of NSF funding annually. The six
ligate the grantee to contribute a specific level
                                                       institutions that were not complying with the
of non-NSF funding to a project. Compliance
                                                       cost-sharing requirements agreed to provide
with cost-sharing requirements allows federal
                                                       the funds during the projects’ life and to
money to be more efficiently allocated to
                                                       monitor cost-sharing in the future.
research.
                                                       Cost-sharing and leveraging of federal grant
When cost-sharing requirements were not
                                                       funds is a significant issue for NSF. As noted
specified in award documents as a condition of
                                                       in prior semiannual reports, we continue to
the grant, the institutions’ auditors did not
                                                       emphasize compliance with cost-sharing
report findings regarding cost sharing, which
                                                       requirements as an audit issue because of the
made it difficult to determine whether institu-
                                                       effect the additional funds can have on
tions were complying with cost-sharing
                                                       research. We also continue to work with NSF
requirements. In response to our recommen-
                                                       to institute processes to identify and remedy
dations, NSF has begun to include specific
                                                       situations where cost sharing was proposed
language in award documents when the
                                                       and required but not provided.
awards are subject to substantial cost-sharing
requirements. As a result, auditors are now
reviewing cost sharing and reporting findings.

Unfortunately, cost-sharing requirements are
rarely “material” and, consequently, are not
reflected in the institution’s financial state-
ments. So, while auditors at institutions are
beginning to identify noncompliance as an
issue, the magnitude of the problem is difficult
to quantify because the findings are not reflec-



Semiannual Report Number 15                       25            NSF Office of Inspector General
AUDITS INVOLVING NSF’S
INTERNAL OPERATIONS
Chief Financial Officers Act
In this reporting period, the Chief Financial        During this period, NSF’s Chief Financial

Officer and OIG continued preparing for the          Officer decided on the content and report

compilation and audit of agency-wide FY              format for the FY 1996 financial statements.

1996 financial statements. NSF is 1 of the 24        We could not determine the level of effort

agencies required by the Government                  needed to audit the statements until this

Management Reform Act of 1994 (which                 decision was made. Agency-wide financial

amended the Chief Financial Officers Act of          statements, footnotes to the statements, and

1990) to compile and audit agency-wide               supplemental information have been drafted

financial statements. Our responsibilities           for FY 1995 and for the FY 1996 period up to

under these Acts increased from auditing             June 30, 1996. Both the OIG and a public

financial statements for NSF’s $40 million           accounting firm, hired by the Chief Financial

Donations (Trust Fund) Account to auditing           Officer to compile the financial statements,

NSF’s entire $3.2 billion budget beginning in        determined that NSF needed to improve its

FY 1996. Without an increase in OIG                  control and management of property, plant,

appropriations to cover the cost of this             and equipment. As a result, NSF is

substantial new requirement, our ability to          performing a physical inventory of on-site

conduct discretionary internal reviews is            property and conducting spot inspections and

reduced. This mandates that we realign               reconciliations of property held at grantee

existing audit staff and obtain additional funds     organizations.

for external contractors. We plan to award a
contract to an independent public accounting
firm to assist in the audit of NSF’s agency-
wide FY 1996 financial statements by the end
of October 1996.




Semiannual Report Number 15                     26            NSF Office of Inspector General
To prepare for our audit of the financial          Review of Information Management
statements, we continued reviews in several
                                                   In this reporting period, we continued work
key areas including interagency agreements
                                                   on several electronic data processing projects,
and general ledger maintenance. Revenues
                                                   and we reviewed and commented on a draft
from interagency agreements are recorded in
                                                   consolidated report that describes findings of a
NSF’s accounting system when they are
                                                   President’s Council on Integrity and Efficiency
negotiated rather than when the service is
                                                   (PCIE) review of application software
performed and the revenue is earned. We
                                                   maintenance in federal agencies. The draft
recommended that NSF modify its current
                                                   report, which is based on findings by our
procedures to ensure that revenue from
                                                   office and other Offices of Inspectors General,
interagency agreements is properly reflected in
                                                   contains several recommendations to OMB to
the FY 1996 financial statements. We also
                                                   improve the performance of federal agencies.
reviewed payroll and nonemployee
                                                   For example, the PCIE recommended that
compensation payments made to the same
                                                   OMB require that federal agencies identify and
individuals and determined that they were
                                                   account for their software maintenance costs
appropriate because the individual’s services
                                                   and prepare cost-benefit analyses to help
were under contract before they were hired as
                                                   system managers make budgetary allocations.
NSF staff. In addition, we responded to
several U.S. General Accounting Office             We are satisfied that NSF management is
(GAO) inquiries concerning NSF’s financial         aware of potential problems that NSF, and all
statements in GAO’s effort to combine the          computer users, will have recording the year
agency-wide financial statements into a            2000 in two-digit data fields. NSF has
consolidated government-wide statement for         undertaken internal reviews to identify the
FY 1997.                                           application systems that must be modified
                                                   promptly.




Semiannual Report Number 15                   27            NSF Office of Inspector General
We reviewed NSF’s procedures for                      federal contracts from paying contract
purchasing personal computers and                     employees a wage less than that outlined in the
recommended that the request for vendor               Wage Determination section of the Act. The
price quotes be centralized to optimize and           Act also sets the fringe benefits that must be
standardize computer purchases and to reduce          provided to contract employees.
processing time and duplicate quotations.
                                                      We audited payroll transactions for FYs 1995
We also continued to monitor the                      and 1996 and found that the recipient and its
development and testing of a contingency plan         subcontractor were not complying with
designed to restore NSF’s computing                   minimum wage standards, which resulted in
capabilities in the event of a major shutdown.        $47,066 in underpayments to contract
In response to our recommendation, NSF                employees. We also found that some contract
management prepared a plan that describes             employees were not paid for the Christmas
actions required before, during, and after a          1995 and New Year’s 1996 holidays even
major shutdown occurs. In particular, NSF             though pay for these holidays is mandated as
plans to test its ability to continue operations      fringe benefits under the Service Contract Act.
from a selected alternate site. We will review        Lost holiday pay totaled $3,375. In addition,
the final plan after it is completed to ensure        NSF was billed $4,054 for the two holidays,
that it adequately provides for the resumption        but we could not confirm that employees
of computer operations in the event of a major        actually received any of this amount.
shutdown.
                                                      We reported $4,054 in questioned costs to
Audit Identifies Underpayments to                     NSF management for resolution. We referred
Contract Employees                                    the apparent violations of the Service Contract
As part of our internal review function, we           Act to the agency that has jurisdiction over
reviewed a contract that provides the staffing        this matter, the Department of Labor, for
for NSF’s mailroom, printing, and warehouse           formal investigation and adjudication.
operations. The contract recipient has similar
contracts with six other federal agencies; all of
these contracts are subject to the Service
Contract Act. The Act prohibits recipients of


Semiannual Report Number 15                      28            NSF Office of Inspector General
Donation or Sale of Excess Computer                 evaluate the feasibility of selling excess
Equipment                                           computers to employees. This would benefit
When old computers are replaced with more           employees seeking to purchase a computer. In
recent models, the old computers are                addition, NSF may be able to use the proceeds
“excessed.” In each of the last 2 years, NSF        from the sale to purchase replacement
has had available approximately 500 excess          computers for use at NSF.
computers, with an estimated value of
                                                    NSF responded that it is drafting a plan for
$275,000. Excess computers are usually
                                                    donating excess NSF computers to schools.
transferred to the General Services
                                                    Currently, several hundred computers are
Administration (GSA), which may distribute
                                                    available for transfer. NSF is also considering
them to other federal agencies or to nonprofit
                                                    the possibility of selling excess computers to
institutions.
                                                    NSF staff members.
The President recently signed an Executive
Order that committed the government to an
efficient donation process for making
computer technology available in the
classroom. The Executive Order directs
federal agencies to transfer educationally
useful equipment directly to schools, rather
than to GSA. This procedure allows schools
to receive needed equipment and helps ensure
that computers do not become outdated
during an extended donation process. Based
on the Executive Order, we recommended that
NSF set up a program that facilitates the
donation of excess NSF computers to schools.

As an alternative or supplement to donating
excess computers, we recommended that NSF




Semiannual Report Number 15                    29             NSF Office of Inspector General
      INVESTIGATIONS
              The investigations section is responsible for
             investigating violations of criminal statutes or
            regulations involving NSF employees, grantees,
        contractors, and other individuals conducting business
           with NSF. The results of these investigations are
       referred to federal, state, or local authorities for criminal
        or civil prosecution or to NSF’s Office of the Director
            to initiate administrative sanctions or penalties.
.




Semiannual Report Number 15      30           NSF Office of Inspector General
EMBEZZLEMENT OR DIVERSION
OF NSF GRANT FUNDS
We place a high priority on allegations involving embezzlement, diversion of grant or contract
funds for personal use, or other illegal use of NSF funds. Deliberate diversion of NSF funds from
their intended purpose is a criminal act that can be prosecuted under several statutes. We
encourage universities and other grantees to notify NSF of any significant problems relating to the
misuse of NSF funds. Early notification of significant problems increases our ability to investigate
allegations and take corrective action to protect NSF and its grantees.

In this reporting period, we investigated 23 cases involving diversion of grant funds: 7 cases
resulted in the return of $261,301 in grant funds, and 4 cases are pending at the Department of
Justice. We also used the results of our investigations to recommend improvements in some of
NSF’s administrative practices.


Abuse in the Federal Excess Property                 grantee can either dispose of or sell the
Program                                              property. However, all proceeds from the sale
The federal excess property program, which is        of this property are to be used for scientific
coordinated by GSA, was created to                   and educational research.
redistribute federal property that is no longer
used by a particular agency. NSF grantees are        With the closing of many U.S. military bases,

eligible to enter this program and acquire           the federal excess property program has

property at no cost. The grantee, with NSF’s         grown considerably during the last 6 years. In

approval, designates an employee, known as a         1995, NSF grantees obtained property with an

screener, to examine, order, and pick up             asset value listed at approximately $50 million

excess federal property. NSF grantees receive        from this program, compared to $5 million in

title to the property once NSF is notified that      1990. Although we estimate that the real

the grantee has received the property. Even          market value of this excess property is far less

though the grantee now owns the property, it         than the listed asset value, the program has

is to be used for the research or educational        grown substantially in recent years, and the

project funded by the NSF grant. When the            number of allegations regarding abuses

property is no longer useful or needed, the


Semiannual Report Number 15                     31            NSF Office of Inspector General
associated with this program has increased          pay him for screening property after he retired
proportionately.                                    from full-time university employment, which is
                                                    scheduled for later this year. As a result of
During this reporting period, we conducted
                                                    our investigation, the university took
three investigations concerning allegations that
                                                    administrative action against the property
NSF-sponsored screeners diverted federal
                                                    manager and credited the proceeds from the
excess property for personal use. We are
                                                    sale of the excess equipment, over $50,000,
working with Federal Bureau of Investigation
                                                    back to the NSF-funded research projects.
(FBI) and Department of Defense (DoD)
                                                    The university also established internal
agents to resolve two of these cases and have
                                                    controls to monitor excess property and to
completed one investigation.
                                                    ensure that all excess property is used for its
In the case that we completed, the screener         original scientific and educational purpose.
was also the university property manager and
                                                    Vice President Gore’s National Performance
therefore was responsible for the acquisition
                                                    Review recommended that Inspectors General
and delivery of excess property as well as its
                                                    use the results of investigations to “help
subsequent disposal or sale. During the last 6
                                                    managers evaluate their management control
years, the screener used NSF grants to receive
                                                    systems” and make recommendations to “help
over 8,300 pieces of excess property that were
                                                    improve systems to prevent waste, fraud, and
distributed throughout the university. Most of
                                                    abuse, and ensure efficient effective service.”
this property was not entered into the
                                                    As a result of our investigations, we made
university’s inventory system, and much was
                                                    several recommendations that will enable NSF
not used for purposes related to the NSF
                                                    to monitor the federal excess property
grants. During the last 2 years, the property
                                                    program more effectively, ensure that excess
manager sold unused, excess property at
                                                    property is used for NSF-funded research, and
public auctions and private sales and placed
                                                    ensure that proceeds generated from the sale
the proceeds in a separate university account.
                                                    of excess property are used to support the
The university did not remit the proceeds from
                                                    scientific and educational projects funded by
these sales back to the NSF research, as
                                                    NSF grants. NSF management generally
required. Instead, the property manager
                                                    agreed with our recommendations.
planned for the university to use this money to


Semiannual Report Number 15                    32            NSF Office of Inspector General
Company Submits False Claims to                     so that HBCUs with significantly fewer federal
Receive NSF Funds                                   dollars could campaign more effectively for
We were notified by DoD that a small mid-           federal funding. The DoD contract was
western engineering company had a contract          awarded to study how well HBCUs managed
that was similar in scope to a grant the            DoD funding programs specifically available
company received from NSF’s Directorate for         through the Army, Navy, and Air Force. We
Education and Human Resources (EHR).                determined that, unlike the NSF effort, the
DoD identified the similar projects during a        DoD project required a technical analysis of
preliminary audit by the Defense Contract           the budget and financial controls as well as the
Audit Agency (DCAA), which disclosed                scientific capabilities of selected HBCUs.
several deficiencies in the company’s
                                                    Although we did not conclude that there was
accounting system. As a result of the audit,
                                                    significant overlap in the projects’ research
DoD suspended payment of funds to the
                                                    objectives, we found that the principal
company pending the completion of the
                                                    investigator (PI) on the NSF award used NSF
DCAA audit, and NSF’s Division of Grants
                                                    grant funds to pay for work performed on the
and Agreements (DGA) suspended the NSF
                                                    DoD contract and for the company’s general
grant, which had an $88,000 balance.
                                                    operating expenses. The PI is the owner and
We examined the proposals for the DoD and           president of the company and had authority to
NSF projects to determine whether there was         make expenditures relevant to both projects.
any duplication of effort. DoD provided the         The PI admitted in a sworn statement that he
company $1.2 million to examine issues              used the NSF funds to pay consultants and
related to DoD funding at Historically Black        employees who worked on the DoD project
Colleges and Universities (HBCUs). NSF              and to cover cash flow shortfalls in the
awarded the company $214,645 to identify            company’s general operation. The PI also
those HBCUs that had been successful in             admitted to signing a Federal Cash
receiving federal funding to support their          Transactions Report that falsely certified that
science and engineering departments.                he had spent $125,845 on the NSF effort,
Ultimately, the NSF project sought to               when, in fact, the PI had spent only $75,000
highlight those factors that contributed to an      on the NSF project. In addition, the PI
HBCU’s success in receiving federal funding         admitted to submitting four false requests for


Semiannual Report Number 15                    33            NSF Office of Inspector General
reimbursement to NSF for expenses that had          addition, the school district returned $18,000
not been incurred. The PI claimed that the          to the NSF grant and agreed to closely
requests for reimbursement were meant to be         monitor future grant expenditures.
requests for advance payments. However, on
                                                    University Mischarges Science
the requests for reimbursement, the PI
                                                    Education Grant
specifically certified that he had already
                                                    A southern university improperly charged a
incurred the costs.
                                                    science education grant for salary expenses
As a result of our investigation, DGA termi-        that were unrelated to the grant. We
nated the award to the company, which al-           contacted university officials and alerted them
lowed the NSF program director to reobligate        to the situation, which prompted the university
the remaining $88,000 for other scientific and      to credit the NSF grant $9,500. In addition,
engineering educational projects. We also           the university reviewed its internal financial
referred the false claims and statements we         management system to ensure that similar,
identified in this matter to the appropriate U.S.   unrelated expenditures would not be charged
Attorney’s Office.                                  to other NSF grants.

Science Education Grant Funds                       University Administrator Pleads
Misused by Local School District                    Guilty to Embezzlement
We received notice that a northeastern state        A university internal auditor found that a
investigative authority was investigating a         university administrator had embezzled
local school district for alleged misuse of NSF     $50,000 from a private research grant. The
science education funds. We coordinated our         matter was referred to local law enforcement
investigative efforts with the state and found      authorities, and the administrator admitted to
that the school district had mischarged NSF         the embezzlement. Continued review of the
funds for educational activities that were          administrator’s activities revealed that she had
unrelated to the NSF grant. No one                  also embezzled $4,464 from an NSF grant.
personally benefited from the misuse of the         The administrator pleaded guilty in state court
NSF funds; however, the school district             to embezzlement and agreed to pay full
initiated administrative action against an          restitution. The $4,464 was returned to the
education official for the misuse of funds. In      NSF grant.


Semiannual Report Number 15                    34            NSF Office of Inspector General
SBIR CASES
During the reporting period, we continued to resolve cases involving SBIR awards. In addition to
continuing work on two cases, we initiated a third case and are coordinating our efforts on that
case with the Department of Justice.

Trial Date Set for Owner of SBIR                     U.S. Attorney’s Office Issues Civil
Company                                              Demand Letter to SBIR Company
                                                     for Submitting Duplicate SBIR
In Semiannual Report Number 14 (page 42),
                                                     Proposals
we reported that the president and sole
                                                     As reported in Semiannual Report Number 14
employee of a west coast SBIR company had
                                                     (page 43), we began an investigation because
been indicted by a Federal Grand Jury on
                                                     an OIG audit found that this company
November 16, 1995. The indictment charged
                                                     routinely submitted similar or identical pro-
the PI with six counts of wire fraud, in
                                                     posals to different agencies without disclosing
violation of 18 U.S.C. § 1343, Wire Fraud,
                                                     its prior submissions, as required in the
and six counts of false statements to NSF, in
                                                     proposals and certifications. This allowed the
violation of 18 U.S.C. § 1001, False
                                                     company to receive awards from two federal
Statements. The indictment followed an OIG
                                                     agencies for the same project. We referred the
investigation, which concluded that the PI,
                                                     case to the appropriate U.S. Attorney’s Office.
though regularly requesting and receiving
                                                     We assisted an Assistant U.S. Attorney in
funds during the 2-year period of his NSF
                                                     drafting a demand letter that stated that the
SBIR Phase II grant, performed less than 3
                                                     company could be liable for damages and
months of research. The trial is scheduled for
                                                     penalties totaling $280,000.
December 2, 1996, and we are assisting an
Assistant U.S. Attorney to prepare for trial.




Semiannual Report Number 15                     35            NSF Office of Inspector General
Company Submitted False
Statements Concealing Duplicate
Proposals
An OIG audit of a northeastern company
determined that the company had received
duplicate funding from two federal agencies
for essentially the same research project. By
not disclosing a pending, duplicate NSF
proposal in its proposal to another federal
agency, the company received two SBIR
Phase I awards for the same project. In
addition, the company submitted a final report
to the other agency that was a duplicate of the
one it sent to NSF several weeks earlier. We
                                                                      TABLE 1:
concluded that the company submitted false                  INVESTIGATIVE ACTIVITY
claims in violation of 31 U.S.C. § 3729, the        Active Cases From Prior
civil False Claims Act. We referred the matter      Reporting Period               38

to the appropriate U.S. Attorney’s Office and       New Allegations                         36
are working with an Assistant U.S. Attorney
                                                           Total Cases                      74
to resolve this matter.
                                                    Cases Closed After
                                                    Preliminary Assessment                  3
The Office of Audit also reviewed grants
provided to several other SBIR companies.           Cases Closed After
                                                    Inquiry/Investigation                   30
Those reviews are described on page 16 of
this Report.                                               Total Cases Closed               33

                                                    Active Cases                            41




Semiannual Report Number 15                    36         NSF Office of Inspector General
OTHER CASES
Individual Impersonates an NSF
Program Officer
During this reporting period, we received an         We also found that this individual was on

allegation that an individual had claimed to be      probation for state convictions for forgery

an NSF Program Officer; provided fellowship          (attempting to cash stolen checks) and battery.

application forms that bore false NSF letter-        We have referred the matter to the appropriate

head to a graduate student; and, upon return         U.S. Attorney’s Office and the individual’s

of the completed application forms, told this        state probation officer for possible criminal

graduate student that his award had been ap-         and administrative sanctions.

proved by the NSF committee this individual
was supposedly supervising. We concluded
that this individual was not affiliated with
NSF. However, to persuade people that he
was an NSF Program Officer, the individual
created and distributed several documents on
false NSF letterhead or bearing NSF’s name
and created a false NSF identification badge,
all in violation of 18 U.S.C. § 701, Possession
of a False Identification Card; 18 U.S.C.
§ 912, Falsely Pretending to be an Officer or
Employee of the United States; and 18 U.S.C.
§ 1017, Government Seals Wrongfully Used.




Semiannual Report Number 15                     37            NSF Office of Inspector General
Federal Trade Commission Files                        Former NSF Employee Pleads Guilty
Complaint to Stop Fraudulent                          to Bank Fraud
Scholarship Program
                                                      A former NSF office automation clerk pleaded
In Semiannual Report Number 14 (page 46),             guilty to bank fraud in the U.S. District Court
we reported that we were working with the             for the Eastern District of Virginia. We
U.S. Postal Inspector Service to investigate an       investigated this employee following an
individual who used a name similar to                 allegation by NSF’s Federal Credit Union that
“National Science Foundation” to solicit              the employee attempted to cash a check that
money from students by representing that the          contained a forged signature. We discovered
organization could award academic scholar-            that the employee had failed to indicate on his
ships. The individual had signed an agreement         application for employment that he had been
with the U.S. Postal Service in 1994, agreeing        convicted of a crime within the last 10 years.
not to represent that he or his organization          In fact, the employee had been convicted of a
provides and/or obtains scholarships to               misdemeanor in Arlington County, Virginia.
promote academic studies.                             We also found that the employee used NSF
                                                      office equipment to facilitate a scheme to
During this reporting period, the Federal
                                                      defraud several local banks and car
Trade Commission joined our investigative
                                                      dealerships. The employee resigned from NSF
effort and filed a civil complaint against the
                                                      after being notified that NSF would terminate
individual for falsely representing his
                                                      his employment, and we referred this matter to
organization’s ability to provide academic
                                                      the U.S. Attorney’s Office. Further
scholarships.
                                                      investigation of the bank fraud scheme was
                                                      jointly conducted by the FBI and OIG.
                                                      Subsequently, a federal grand jury indicted the
                                                      former NSF employee for bank fraud. On
                                                      July 24, 1996, the former employee pleaded
                                                      guilty to four counts of fraud on a financial
                                                      institution. The former employee was
                                                      sentenced to 21 months in prison.




Semiannual Report Number 15                      38            NSF Office of Inspector General
Misuse of Internet Access                               Funds Returned as Part of
• NSF computer technicians detected an                  Misconduct Case
  unusually high number of calls from outside           Cases that involve misconduct in science

  computers to an NSF computer. The                     are described in the Oversight section of

  technicians discovered that an unauthorized           this Report. We describe investigative

  File Transfer Protocol site had been                  recoveries in this section. In this reporting

  established on the NSF computer. We                   period, as part of the resolution of a

  determined that an NSF summer intern had              misconduct case that involved plagiarism

  established the File Transfer Protocol site.          and a violation of the confidentiality of

  The intern admitted in a sworn statement              peer review, NSF and the university agreed to

  that he used the computer to establish an             terminate an NSF grant. As a result, $88,923

  unauthorized File Transfer Protocol site to           was returned to NSF (see page 42).

  electronically exchange copyrighted
  software with outside users. After the
  intern exchanged numerous software
  programs, the intern dismantled the
  site to avoid detection. The intern                                 TABLE 2:
                                                              INVESTIGATIVE STATISTICS
  resigned after being notified that NSF
                                                 Referrals to Judicial Authorities                       5
  would initiate administrative sanctions.
                                                 Referrals From Previous Reporting Period                5
• An NSF program assistant was                   Prosecutorial Declinations                              1
  suspended after using the                      Indictments (including criminal information)            1
  Internet/World Wide Web to access,             Criminal Convictions/Pleas                              1
  download, and print pornographic and           Civil Complaints Filed                                  1
  other material not related to official         Administrative Actions                                  5
  NSF business. The employee had                 Investigative Recoveries*                           $261,301
  accessed these websites while at his           * Investigative Recoveries comprise civil penalties and
  NSF computer and used a local area             criminal fines and restitutions as well as specific cost savings
                                                 for the government.
  network printer to print the material.




Semiannual Report Number 15                   39                   NSF Office of Inspector General
                   OVERSIGHT
            The Office of Oversight focuses on the science-
       engineering-education-related aspects of NSF operations
        and programs. It oversees the operations and technical
         management of the approximately 200 NSF programs
         that involve about 53,500 proposal and award actions
             each year. The Office conducts and supervises
          compliance, operations, and performance reviews of
       NSF’s programs and operations; undertakes inspections
         and evaluations; and performs special studies. It also
          handles all allegations of nonfinancial misconduct in
         science, engineering, and education and is continuing
           studies on issues related to misconduct in science.




Semiannual Report Number 15    40         NSF Office of Inspector General
MISCONDUCT IN SCIENCE
AND ENGINEERING
NSF’s Safeguards for Properly                       definition enables misconduct cases to be
Resolving Misconduct Allegations                    handled in a principled way, but it takes sound
In June, the Department of Health and Human         procedures and appropriate interpretation to
Services’ (HHS) Research Integrity Adjudi-          realize its full value.
cations Panel overturned a finding of
                                                    One safeguard is the separation of investiga-
misconduct in science by HHS’ Office of
                                                    tion and adjudication. At NSF, no single
Research Integrity (ORI) in a highly publicized
                                                    office performs investigations and also makes
case (IN THE MATTER OF THEREZA IMANISHI-
                                                    findings of misconduct: the Office of Inspector
KARI, PH.D.). Since the Research Integrity
                                                    General investigates misconduct cases, and an
Adjudications Panel’s decision, there has been
                                                    entirely independent official, ordinarily NSF’s
much public comment suggesting that HHS
                                                    Deputy Director, takes a fresh look at the
needs to reform how it handles misconduct in
                                                    evidence, judges whether a finding of mis-
science cases.
                                                    conduct is warranted, and determines whether
Although we play no role in handling cases at       NSF should take action against the subject.
HHS, we are often asked whether NSF’s               The Deputy Director gets scientific and legal
handling of misconduct issues needs reform.         advice from people whose offices were not
We continually strive to improve our                involved in investigating the case. Neither the
processes, and we welcome suggestions for           Inspector General nor the Deputy Director
improvement. At the same time, we believe           plays any role in supervising the other. We
NSF already has important safeguards in place       believe the organizational separation of
that help us handle misconduct cases well.          investigation and adjudication gives our office
These safeguards mainly involve the processes       incentives to develop strong cases that will
by which NSF investigates and adjudicates           persuade an impartial outsider and to close
cases. They also involve how we interpret the       cases without recommending a finding of
definition of misconduct in science in NSF’s        misconduct where the evidence is not
regulation. But we believe the wording of the       persuasive. In addition, we believe this
definition is not by itself a safeguard. NSF’s      separation helps ensure fairness to accused


Semiannual Report Number 15                    41             NSF Office of Inspector General
scientists by guaranteeing that only an official     prepared to recommend that NSF find they
who has had no role in the investigation can         committed misconduct. In our view, fairness
find that they committed misconduct.                 demands that accused scientists have an
                                                     opportunity to respond to a coherent expla-
Another safeguard is that misconduct inquiries
                                                     nation of the case against them, not that they
and investigations are conducted confidentially
                                                     be asked for piecemeal responses to isolated
to the maximum extent permitted by law. We
                                                     bits of evidence as a case is developing or
routinely decline to comment publicly about
                                                     allowed to monitor the investigative process.
whether we have a case, let alone about the
evidence we have collected. Our investigative        Another practice that we think facilitates
files are protected by the Privacy Act, which        sound case decisions is analyzing cases in
minimizes publicity. Our practice avoids             writing and subjecting written case analyses to
involving complainants in our investigative          multifaceted review. In our office, the staff
decisions, keeps the identities of affected          scientist who takes the lead in the investi-
parties confidential, and avoids the harm that       gation prepares written analyses at significant
more public investigations do to the                 points in the investigative process. Written
reputations of those involved. It also enables       analyses place a premium on careful thought
us to keep our view of a case flexible and open      and rational argument. They minimize the
to new evidence because we are not tempted           influence of emotional reactions on how a case
to pursue a case in a way that will justify a        is handled. These analyses are reviewed by
prematurely taken public stance.                     scientists and attorneys who have not
                                                     participated directly in gathering the evidence.
Our process ensures fairness to accused
                                                     Writing and reviewing encourage sober
scientists by providing them with opportunities
                                                     second looks at the evidence in a case. By
to be heard at appropriate stages in the case.
                                                     involving both scientists and attorneys at every
We encourage them to offer evidence and
                                                     stage in the development of misconduct cases,
explanations from the earliest point at which it
                                                     we help ensure that relevant legal and
is practicable for them to do so, and we permit
                                                     scientific considerations figure into our
them to confront and respond to the evidence
                                                     investigative decisions and that, in the end,
against them after we have drafted a written
                                                     recommended findings of misconduct are
report of the case that explains why we are
                                                     based on sensitivity to the standards that are


Semiannual Report Number 15                     42            NSF Office of Inspector General
accepted in the scientist’s community and           definitions that imperfectly mirror how
strong evidence that those standards have           scientists use terms such as “falsification” and
been seriously violated.                            that can acquire a regulatory life of their own,
                                                    divorced from the scientific community’s
Our interpretation of the definition of
                                                    ethical standards.
misconduct in science is also important. For
us, the language in our regulation about            We encourage those interested in improving
“serious deviation from accepted practices” is      the way misconduct cases are handled to study
at the core of the definition. Rather than          these and other organizational processes at
viewing this language as a vague “catch all”        NSF and elsewhere. We believe close
clause that gives us undefined and unlimited        attention to process can lead to improvements
jurisdiction, we view it as “empowering NSF         in the fairness, rationality, and timeliness with
to take action against serious violations of the    which agencies handle misconduct cases.
‘common law’ of the scientific community,
that is, the shared standards that enable
communities of scientists to function”
(Semiannual Report Number 13, page 27).
                                                      NSF’s Definition of Misconduct in
Our interpretation of this language maximizes            Science and Engineering
the congruence between the ethical standards
                                                              Fabrication, falsification,
of the scientific community and the regulatory              plagiarism, or other serious
standard against which scientists are judged.          deviation from accepted practices
                                                           in proposing, carrying out, or
In a data falsification case, the idea that              reporting results from activities
misconduct in science is a “serious deviation            funded by NSF; or retaliation of
                                                          any kind against a person who
from accepted practice” focuses the
                                                        reported or provided information
investigation on whether and how the data                   about suspected or alleged
reports in question seriously violate the
                                                           misconduct and who has not
                                                                 acted in bad faith.
standards in the relevant scientific community
for truthfulness in how scientists should
present their data. Because we focus directly
on community standards, we can avoid formal



Semiannual Report Number 15                    43             NSF Office of Inspector General
CASES LEADING TO INVESTIGATIVE REPORTS SENT TO
THE OFFICE OF THE DIRECTOR
Violating the Confidentiality of Peer                it would be relevant to his own NSF proposal
Review and a Pattern of Plagiarism                   that he had not yet written.
We were informed that the subject had
                                                     When the subject submitted his NSF proposal
submitted an NSF proposal that contained text
                                                     containing the text plagiarized from the source
that was copied from another PI’s NSF
                                                     proposal, he requested that the author of the
proposal (the source proposal).
                                                     source proposal not be included as a reviewer
We learned that a researcher in the subject’s        of his NSF proposal because he had a “conflict
department had received the source proposal          of interest.” The author of the source pro-
from NSF with a request for confidential merit       posal and subject were research competitors,
review. Without obtaining NSF’s permission,          and we concluded that the subject’s request
the researcher shared that proposal with the         was an attempt to prevent the author from
subject and asked him to review a particular         detecting the plagiarism.
method about which he considered the subject
                                                     During our inquiry, we learned that the subject
knowledgeable. The subject said the
                                                     had also submitted a proposal to the National
researcher told him the source proposal was
                                                     Institutes of Health (NIH) and that it con-
confidential, and yet, while the subject had it,
                                                     tained two sections of the copied text found in
he photocopied selected pages. The subject
                                                     his NSF proposal; but it also contained more
claimed he subsequently copied text from
                                                     copied text. We found that the subject’s NSF
these pages into his own NSF proposal. We
                                                     and NIH proposals and the source proposal
identified five sections of text from the source
                                                     were revisions of proposals that had been
proposal that had been copied into the
                                                     submitted 1 year earlier to the same agencies.
subject’s NSF proposal. We concluded that
                                                     Although these earlier proposals had been
the subject had to have photocopied the entire
                                                     declined, the subject’s revised NIH proposal
confidential source proposal because he wrote
                                                     and the revised source proposal were funded.
his own NSF proposal several months later,
                                                     We found that the two larger sections of
and he could not have envisioned what part of
                                                     copied text, which appeared in the subject’s
                                                     revised NIH and NSF proposals were directly


Semiannual Report Number 15                     44            NSF Office of Inspector General
responsive to reviewers’ criticisms of the              conclusion on the subject’s statements, on
subject’s earlier proposals.                            four separate occasions, that he had never
                                                        plagiarized material in the past.
       The University’s Investigation
After contacting HHS’ ORI, we deferred the                             OIG’s Investigation
investigation into this case to the institution.        During our review of the university’s investi-
The institution’s investigation concluded that          gation report and the supporting evidence, we
the subject had committed misconduct in                 identified an additional section of text the sub-
science. Specifically, it decided that a                ect had copied from the NSF source proposal
preponderance of the evidence supported the             into his funded NIH proposal. In response to
conclusions that the subject acted knowingly            our questions, the subject admitted that he had
and willfully when he plagiarized text from the         also copied sections from an overview article
NSF source proposal into his own and that he            into his earlier declined proposals. The sub-
violated the confidentiality of peer review.            ject identified additional sections of the over-
The subject claimed that he had requested that          view article that he had copied into his earlier
the author of the source proposal be excluded           proposals. The subject also said that all the
as a reviewer of his NSF proposal based on              remaining material was his alone. However,
department policy. Other members of the de-             when we compared the subject’s earlier pro-
partment stated that there was no such policy.          posals with the overview article, we found
The institution also concluded that the sub-            additional sections of text that had been
ject’s actions were an isolated incident. It            copied from the article into




                           TABLE 3: MISCONDUCT CASE ACTIVITY
                                                          FY 1996       FY 1996
                                                          First Half    Last Half
                         Active Cases From Prior
                         Reporting Period                     76           68
                         Received During
                         Period                               13           25
                         Closed Out During
                         Period                               21           34
based this               In-Process at
                         End of Period                        68           59


Semiannual Report Number 15                        45              NSF Office of Inspector General
these earlier proposals. We found many of the          the investigating committee or with OIG when
sections copied in the subject’s earlier               he claimed he had only copied selected pages
proposals in his subsequently submitted                from the NSF source proposal and when he
revisions. Some of the text in these sections          claimed, on four separate occasions to the
had been edited when the subject revised the           university investigating committee, that he had
earlier proposals.                                     never plagiarized in the past. We disproved
                                                       his statement to us about the complete
In all, we concluded that the subject had
                                                       originality of the text in his earlier proposals.
plagiarized 17 sections of text. We concluded
                                                       Finally, the subject attempted to prevent the
that the subject photocopied the entire NSF
                                                       original author from reading his NSF proposal
source proposal, not, as he claimed, selected
                                                       by requesting that he not be permitted to
pages.
                                                       review it.
A preponderance of the evidence supported
                                                       We recommended that the Deputy Director
the conclusion that the subject had knowingly
                                                       find that the subject committed misconduct in
plagiarized text into his earlier unfunded pro-
                                                       science; debar him from receiving federal
posals from the overview article and that he
                                                       funds for 2 years; and prohibit him from
had willfully plagiarized text into his revised
                                                       participating in NSF’s review process for 3
proposals from the NSF source proposal. He
                                                       years. We recommended that, for 2 years
knowingly violated the confidentiality of peer
                                                       following the debarment, the subject be
review when he ignored the researcher’s stipu-
                                                       required to certify that his proposals contain
lation that the source proposal was a confi-
                                                       nothing that violates NSF’s misconduct
dential document and photocopied that
                                                       regulation and accompany his certification
proposal for his later use. We concluded that
                                                       with an assurance by his chairperson that the
the subject exhibited a pattern of plagiarism in
                                                       proposal contains no plagiarized material and
the proposals he submitted to two federal
                                                       all source documents are properly cited.
agencies. Each of his four sequentially
submitted proposals contained at least one
new section of copied text not found in the
previous versions. We viewed his actions as
more serious because he was not truthful with


Semiannual Report Number 15                       46             NSF Office of Inspector General
Plagiarism in an NSF Proposal                         We referred the allegation to the university for
                                                      investigation. The investigation committee
We received an allegation that the subject, an
                                                      accepted the subject’s explanation that he had
experienced researcher at a western university,
                                                      written the proposal from notes he had
had plagiarized text in his funded NSF
                                                      prepared while reading the review article as
proposal from a review article by other
                                                      well as other publications, and this accounted
scientists. Eleven sections of text, consisting
                                                      for the similarity in wording. The committee
of 44 lines in the proposal, were either
                                                      observed that the subject had referenced the
identical or substantially similar in wording to
                                                      article once in the proposal, although not in
the article’s text. None of the text was offset
                                                      conjunction with any of the 11 sections of
or cited to the source document. The subject
                                                      copied text. The committee cited two
explained that the text copied from the review
                                                      examples of text that it believed supported the
article did not contain original ideas, and
                                                      conclusion that other publications contained
comparable wording could be found in other
                                                      text comparable to the copied text. However,
publications. We compared the subject’s
                                                      in the first instance, the committee misquoted
proposal, the review article, and the publica-
                                                      part of the text from the two sources it was
tions in a reference list provided by the sub-
                                                      comparing, and, in the second, the committee
ject. We concluded that the subject’s evidence
                                                      cited only a single sentence. When we asked
verified that the copied text contained
                                                      the committee to provide additional
knowledge that was common in the field, but
                                                      convincing examples of comparable text, it
did not support his contention that the
                                                      cited the subject’s original reference list. The
wording he used in his proposal could be
                                                      committee said it was natural for authors
similarly explained as common in the field.
                                                      writing about the same ideas to produce text
                                                      that was similar. The committee concluded
                                                      that, because the proposal did not contain a
                                                      single, complete verbatim sentence copied
                                                      from the article, the subject had not committed
                                                      plagiarism or misconduct in science.

                                                      We regarded the committee’s view of
                                                      plagiarism as too narrow because it did not


Semiannual Report Number 15                      47            NSF Office of Inspector General
recognize that close paraphrasing as well as         not check to see whether he was properly
copying many units of text shorter than a            acknowledging his sources. However, given
sentence is commonly considered plagiarism.          the extensive copying of text from the article
The committee accepted the subject’s account         into the proposal and the similar organization
that he relied on notes he prepared from the         of the material in both documents, we
article to write his proposal. However,              considered it more likely than not that the
because the subject had discarded his notes,         subject actually copied the text directly from
the committee could not substantiate his claim       the article into the proposal.
that he used notes to prepare his proposal.
                                                     We concluded from the preponderance of the
The committee did not request other examples
                                                     evidence that the subject, an experienced
of the subject’s notes. It could not verify that
                                                     scientist and journal editor, committed
he actually used notes or, if he did, whether
                                                     plagiarism. We recommended that the Deputy
they commonly contained source citations and
                                                     Director find that the subject committed
distinguished between copied or paraphrased
                                                     misconduct in science; send him a letter of
text and his own.
                                                     reprimand; require that he certify to NSF for 2
We determined that the subject had been less         years that any proposal he submits as a PI or
than truthful when he denied that the copied         co-PI contains nothing that could be
text in his proposal was from the article and        considered misconduct in science; and require
when he contended that the identified text was       that his department chairperson certify that, to
comparable to other published text. We               the best of his/her knowledge, the proposal
believe the subject seriously deviated from          contains no plagiarized text.
accepted practice when he copied 44 lines of
text from the article, including some of the
article’s organization, into his NSF proposal.
We concluded that, even if the subject copied
text into his proposal from notes he prepared
from the article, as he claimed he did, his
action was grossly negligent because he did




Semiannual Report Number 15                     48            NSF Office of Inspector General
CASES SENT TO THE OFFICE OF THE DIRECTOR IN AN
EARLIER SEMIANNUAL PERIOD
                                                    a reviewer, consultant, or advisor for NSF for
Plagiarism and Violation of
Confidential Merit Review                           5 years. NSF and the university mutually
                                                    agreed to terminate the grant resulting from
In Semiannual Report Number 13 (page 31),
                                                    the proposal containing the plagiarized
we discussed the case of a PI who had
                                                    material, with an $88,923 recovery.
plagiarized text and figures from an NSF
proposal he had earlier reviewed as a member        Plagiarism From Four NSF
of an NSF review panel. The subject claimed         Proposals
that a student had plagiarized the material         In Semiannual Report Number 13 (page 34),
from the proposal without his knowledge.            we discussed a case in which a subject
However, we learned that the student was not        submitted a proposal to NSF that contained
in the country when the subject’s proposal was      material plagiarized from four other NSF
prepared, and that the subject, alone, prepared     proposals. The amount of material plagiarized
it. We recommended that NSF send the sub-           was substantial. NSF’s Deputy Director
ject a letter of reprimand, debar him from          concurred with our recommendations in this
receiving federal funds for a period of 3 years,    case. She found that the subject committed
prohibit the subject from serving as a reviewer     plagiarism, and his actions were a serious
for NSF for a period of 5 years, and recover        deviation from accepted practices in the
the funds ($88,923) awarded to the subject’s        scientific community. She determined that the
institution on the basis of the subject’s           subject committed misconduct in science;
proposal that contained plagiarized material.       debarred him from receiving federal grant

The Deputy Director concluded that the sub-         funds for 1 year; and prohibited him from

ject had committed “severe misconduct in            serving NSF as a reviewer, advisor, or

science” and sent him a letter of reprimand.        consultant during the debarment period.

She debarred him from receiving federal funds
for 2 years and prohibited him from serving as




Semiannual Report Number 15                    49            NSF Office of Inspector General
CASES CLOSED IN THIS PERIOD WITH NO INVESTIGATION
REPORT TO THE OFFICE OF THE DIRECTOR
In this section, we discuss five cases we closed that did not result in recommendations for findings
of misconduct, but which, nonetheless, highlight important issues. The first four cases well
illustrate how problems arising from poor student-mentor relationships can result in allegations of
misconduct in science. Three of these cases also illustrate the importance of timely, well-managed
institutional processes for resolving such allegations. The fifth case describes our decision not to
readdress a case whose facts had been considered and resolved by another federal agency.


Deciding Authorship Credit                           The university committee concluded that the
                                                     action involved in the second allegation was
A university conducted an investigation of
                                                     within the accepted practices of the
three allegations that an NSF-funded professor
                                                     community, and that, in the other two
had misappropriated his graduate students’
                                                     allegations, the professor’s actions deviated
work by:
                                                     from accepted practices, but they did not rise
• not naming one of his graduate students as a       to the level of misconduct.
  coauthor on a paper that was based
                                                     We asked the Chancellor to clarify why, in
  extensively on the student’s thesis work;
                                                     light of the facts presented by its investigative
• including himself as a coauthor on a journal       panel, the university believed the professor’s
  publication that was based on a term paper         deviations from accepted practices were not
  written solely by another of his students;         serious. The Chancellor replied that he
  and                                                personally disagreed with some of the panel’s
                                                     conclusions, but that as an official of the
• referencing a computer program different
                                                     university, he did not wish to overturn the
  from the one actually used to calculate the
                                                     panel’s decision. We requested that the
  reported results. The referenced program
                                                     Chancellor reconvene the investigative panel
  was written by the professor and a
                                                     to clarify its reasoning, but he declined to do
  collaborator; the program actually used was
                                                     so. The university’s decision left us with no
  written by one of the professor’s students.
                                                     authoritative reasoning from the university and



Semiannual Report Number 15                    50              NSF Office of Inspector General
with the conflicting assessments of the               deserved, but their opportunity to learn what
Chancellor and the investigative panel on the         is accepted practice was affected.
seriousness of the professor’s deviations from
                                                      Alleged Intellectual Theft and
accepted practices. Consequently, we were
                                                      Sexual Harassment
unable to close this case at this point.
                                                      A graduate student (the complainant) at a
As discussed in Semiannual Report Number              large northeastern university alleged that her
12 (pages 26 and 27), NSF relies on the               faculty advisor (the subject) appropriated
university to provide a detailed analysis             some of her ideas without acknowledgment on
explaining its decisions and actions. However,        four separate occasions. The ideas appeared
NSF has the authority to take independent             in publications and as part of conference
action, if necessary, to protect the integrity of     presentations. The complainant told us that
research connected with its funds. We                 she had informed the university of her
initiated our own investigation and consulted         allegations and that it had initiated an inquiry.
with two experts familiar with research and           We referred our inquiry to the university and
publication practice within the professor’s           asked that it provide a copy of its inquiry and
field.                                                any investigation report on completion.

The two consultants were split on their               We subsequently learned that the
opinion about whether the professor’s actions         complainant’s statement to the university
related to the two unresolved allegations             included allegations of sexual harassment
represented serious deviations from accepted          against the subject that she linked with the
practices. We concluded that, under the               allegations of intellectual theft and with his
circumstances, we could not make a case that          impeding her research progress. The
misconduct in science was demonstrated for            complainant informed the U.S. Department of
any of the allegations, and we subsequently           Education (DoEd) about the alleged sexual
closed this investigation.                            harassment, and she also initiated legal
                                                      proceedings against the subject and the
Although there was no finding of misconduct
                                                      university. We suspended our review of the
in this case, still, the professor’s role as a
                                                      allegations pending resolution of the legal
mentor was compromised by his arbitrary
                                                      proceedings. Subsequently, we learned that
assignment of authorship credit. Not only did
                                                      the parties had reached a confidential
the students not receive the credit they


Semiannual Report Number 15                      51             NSF Office of Inspector General
settlement agreement resolving the issues, and          other, the subject had provided the
that DoEd on this basis had closed the                  complainant with only limited acknowledg-
complainant’s case. We requested a copy of              ment rather than authorship. We observed
what the university considered its inquiry              that the subject used the complainant’s work
report. The report did not adequately address           in a manner that was not collegial. We
the four allegations of intellectual theft and did      concluded that, although the subject’s citation
not evaluate the allegations of sexual                  practices did not provide a supportive and
harassment as possibly impeding the                     positive mentoring environment for the
complainant’s research efforts. At our                  complainant, his actions in this situation did
request, the university initiated an investiga-         not rise to the level of misconduct in science.
tion into the allegations of intellectual theft.
                                                        The institution had previously considered the
The university’s investigation committee                allegations of sexual harassment separately
concluded that the subject had not committed            under other existing policies and procedures
intellectual theft, but its investigation report        and had entered into a confidential settlement
was incomplete. We requested additional                 agreement, which precluded the parties from
information and on the basis of what we                 any future discussion of them. We had
received decided to initiate our own review.            received detailed information from the com-
Our examination of the four allegations of              plainant about the allegations of sexual harass-
intellectual theft determined that one had no           ment prior to the settlement agreement. We
substance, and another had insufficient                 reviewed the complainant’s claim that the
substance to pursue. Of the two remaining               subject’s alleged sexual harassment impeded
allegations of intellectual theft, one involved         her research progress. The complainant’s
some of the complainant’s data that had been            detailed description revealed a complex
published in a paper coauthored by the subject          relationship between the complainant and the
with another scientist, and the other involved          subject. We were unable to find clear
some of the complainant’s ideas and text that           examples of alleged sexual harassment by the
appeared in a conference paper published by             subject that could be linked to his impeding
the subject. Although the subject had                   her research progress. We also concluded that
apparently used the complainant’s information           the complainant’s allegation that the subject’s
in both instances, in one case he had not               failure to properly acknowledge her research
acknowledged her help in the paper. In the              efforts was evidence of sexual harassment was


Semiannual Report Number 15                        52            NSF Office of Inspector General
unsupported because both the institution’s and      Department Chair Issues
our investigations determined that no               Inappropriate Ultimatum
intellectual theft had occurred.                    A graduate student whose research had been
                                                    supported by an NSF award to his dissertation
In this case, because the university had not
                                                    advisor complained to his university that the
followed through with an acceptable inquiry
                                                    advisor had misappropriated his work. The
into the allegations of misconduct in science as
                                                    student also complained to NSF and to a
we expected, we were forced to ask the
                                                    professional society, and he refused to
university repeatedly for information and
                                                    reimburse the university for certain funds he
eventually to initiate our own review of these
                                                    owed it despite having promised to do so.
matters to resolve the case. A more timely
                                                    The chair of the student’s department
resolution of this case would have been
                                                    instructed the complainant that the university
possible had the university carried out an
                                                    would inquire into his misconduct complaints,
adequate inquiry and investigation, as required
                                                    but only if he behaved appropriately, kept his
by NSF’s misconduct in science regulation (45
                                                    promises to the university, and took steps to
C.F.R. § 689.3), and had fully addressed all
                                                    repair the damage he had caused to his
allegations.
                                                    advisor’s reputation when he made his
                                                    allegations widely known.

                                                    The student alleged that the advisor had
                                                    committed misconduct by claiming
                                                    coauthorship of the student’s work. We
                                                    determined that the advisor had initiated the
                                                    research in question and secured NSF funding
                                                    for it. The work was carried out under the
                                                    advisor’s direction and along lines projected in
                                                    the advisor’s NSF proposal. We concluded
                                                    that, however little the advisor did to execute
                                                    the project plan, his contribution in developing
                                                    the plan was such that a claim of coauthorship
                                                    could not be considered misconduct.




Semiannual Report Number 15                    53            NSF Office of Inspector General
Our inquiry indicated that the student’s alle-        engineering in an attempt to induce a
gations lacked substance, and we closed the           complainant to improve his behavior.
case. After doing so, we wrote to the univer-
                                                      No Communication Between
sity administrator who represents the univer-
                                                      Professors and Graduate Student
sity in its dealings with NSF to inform him that
                                                      We received an allegation that a journal paper,
the department chair’s action was inappro-
                                                      published with NSF funds by three professors
priate. We explained that awardee institutions
                                                      and a graduate student, contained data that
must pursue allegations of misconduct regard-
                                                      were either fabricated or falsified. The
less of how the informant who raised the
                                                      complainant’s concern was that these results
allegations behaves. We asked the adminis-
                                                      would distort priorities in an expanding field
trator to inform department heads and other
                                                      of research. The complainant knew that a
responsible administrators at the university of
                                                      scientist had previously contacted the authors
their obligations in situations such as this.
                                                      of the journal paper to clarify their
In our view, the primary purpose of university        calculations. The complainant concluded from
inquiries and investigations is to safeguard the      the three professors’ response that they had
integrity of research and education at the            not followed the procedure described in their
university, not to serve the interests of             paper.
complainants. University inquiries and
                                                      An NSF program officer agreed with the
investigations also help maintain the integrity
                                                      scientist’s analysis. When we asked the
of NSF’s proposal and award processes.
                                                      professors to explain the alleged discrepancies
NSF’s misconduct regulation (45 C.F.R.
                                                      between the procedure presented in their
§ 689.3) states that “in most instances, NSF
                                                      paper and the procedure described in their
will rely on awardee institutions to promptly:
                                                      response to the scientist, they said they were
(1) Initiate an inquiry into any suspected or
                                                      responsible for designing the scope of the
alleged misconduct; (2) Conduct a subsequent
                                                      project and writing the manuscript, but that
investigation, if warranted; and (3) Take
                                                      the graduate student was solely responsible for
action necessary to ensure the integrity of
                                                      calculating the results. They composed the
research. . . .” It is unacceptable for a
                                                      response to the scientist because the graduate
university official to undermine our common
                                                      student had transferred to another university
effort to uphold integrity in science and
                                                      and made himself unavailable to the prof-



Semiannual Report Number 15                      54             NSF Office of Inspector General
essors. Their response was consequently              in misleading or defective scientific
based on their interpretation of how they            publications. We suggested that a closer
thought the graduate student had calculated          working relationship between the professors
the results.                                         and their graduate student, which should have
                                                     included the professors verifying the graduate
The graduate student explained that when he
                                                     student’s methodology and results, could have
replied to our letter of inquiry, he first noticed
                                                     prevented allegations of fabrication or
a significant miswording in the paper
                                                     falsification. We cautioned one professor that
describing the methodology. He explained
                                                     more care should be exercised in the
how what he did differed from what one might
                                                     preparation of his proposals.
interpret from a reading of the paper because
of this miswording. He offered to submit a           Reconsideration of Case Settled by
correction to the editor of the journal that         Other Federal Agency Not
                                                     Warranted
published the original paper. He also informed
us that he received no NSF funds; he was             Because of special circumstances outlined
supported by a university fellowship.                below, we decided not to pursue a misconduct
                                                     in science allegation. The factual basis of the
In several proposals, one of the professors
                                                     allegation had already been treated and
referred to the paper as resulting from prior
                                                     resolved by another federal agency, the DoEd
NSF support. We learned from him that he
                                                     Office of Civil Rights (OCR), as a matter of
was describing his related research, not
                                                     gender discrimination.
strictly research supported by NSF. He told
us that the research reported in the paper was       The subject of the allegations was the head of
completed before he received his NSF award.          a university-affiliated research facility. The
We concluded that NSF funds had not                  complainants were two female researchers.
supported this research and we lacked                Among the complainants’ allegations of
jurisdiction in this case. We, however, agreed       gender discrimination were that the subject
with the graduate student’s offer to write a         had attempted to destroy a female scientist’s
correction and recommended that the                  data and that he had arbitrarily denied a female
professors and graduate student coordinate           scientist access to equipment necessary for her
their response. This case showed how poor            research. We concluded that, depending on
communication between coauthors can result           the facts of the case and regardless of whether



Semiannual Report Number 15                     55            NSF Office of Inspector General
gender discrimination was involved, these                  We decided that reconsidering the facts in this
alleged actions might prove to be sufficiently             case would have been warranted only if
serious deviations from accepted practice in               OCR’s resolution left NSF with a significant
the scientific community to constitute mis-                unresolved interest at stake or if OCR’s
conduct in science. After OCR initiated a                  resolution, however adequate to the alleged
gender discrimination investigation, the uni-              gender discrimination, appeared to be grossly
versity and OCR settled the complaint by                   inadequate to the seriousness of the alleged
agreeing that the university would improve its             misconduct in science. We determined that
procedures for handling gender discrimination              neither of these conditions was met. The
complaints, remove the subject from his                    subject’s alleged actions did not indicate that
position as director of the facility for 3                 he could not be trusted to function as a PI or
months, act to protect the interests of women              that some other, comparably compelling NSF
whom the subject had allegedly harmed, and                 interest was at stake. Because the subject
promise that neither the university nor its                suffered a brief suspension from his position as
employees would retaliate against the com-                 head of the facility and the stigma of a public
plainants. The outlines of the settlement were             sanction, we concluded that the results of
made public. The complainants brought the                  OCR’s action could not be considered grossly
case to us because they were dissatisfied with             inadequate. We concluded that, in the
the OCR settlement.                                        circumstances of this particular case, it would
                                                           be inequitable for us to put the subject through
                                                           a second federal proceeding by reconsidering
                                                           the same factual allegations as possible in-
                                                           stances of a different category of wrongdoing



                  TABLE 4: ASSURANCES AND CERTIFICATIONS RECEIVED*
  Number of Cases Requiring Assurances at End of Period                                            6
  Number of Cases Requiring Certifications at End of Period                                       10
  Assurances Received During This Period                                                           2
  Certifications Received During This Period                                                       4
  * NSF accompanies some findings of misconduct in science with a certification and/or assurance requirement.
  For a specified period, the subject must confidentially submit to the Assistant Inspector General for Oversight a
  personal certification and/or institutional assurance that any newly submitted NSF proposal does not contain
  anything that violates NSF’s regulation on misconduct in science and engineering. These certifications and
  assurances remain in the OIG and are not known to, or available to, NSF program officials.

Semiannual Report Number 15                       56                  NSF Office of Inspector General
OVERSIGHT ACTIVITIES
NSF’s Supplemental Ethics Rules
Near Implementation
The Office of Government Ethics (OGE)                 any matter for 1 year. Regarding this latter

finalized uniform Standards of Ethical Con-           prohibition, NSF had a preexisting rule that

duct for Executive Branch employees in 1992.          prohibited all NSF employees, including NSF

Before OGE issued its Standards, NSF had              program officers, from representing them-

crafted ethics standards that were tailored to        selves or others before NSF for 1 year after

NSF’s unique circumstances. The OGE                   they left NSF. NSF’s “1-year rule” was super-

Standards were intended to replace the myriad         seded when the OGE rules were finalized in

ethics rules that individual agencies, including      1992.

NSF, had issued. Agencies that wanted to
                                                      In Semiannual Report Numbers 5 (page 38)
supplement the OGE Standards were required
                                                      and 10 (page 43) we discussed our concern
to submit proposed supplemental standards to
                                                      that OGE allow NSF to implement its supple-
OGE for approval, which NSF did in 1992.
                                                      mental standards, particularly the 1-year rule,

The government-wide ethics rules and statutes         which ensures that former NSF program

(in particular, 18 U.S.C. § 207) prohibit all         officers cannot—and cannot even be perceived

former NSF employees from representing                to be trying to—use their connection with

themselves or others before NSF ever, con-            NSF to obtain preferential treatment.

cerning particular matters in which the em-           Eventually, OGE and NSF reached agreement

ployees participated personally and substan-          on NSF’s supplemental standards, including

tially, and for 2 years concerning particular         the “1-year rule.”

matters in which the employees had some
                                                      In this reporting period, NSF management ap-
measure of official responsibility but did not
                                                      proved the supplemental standards that had
participate personally and substantially. Under
                                                      been worked out with OGE. NSF anticipates
the government-wide rules, only the most
                                                      that, after a brief final review by OGE, the
senior personnel are prohibited from repre-
                                                      regulations will be published in the Federal
senting themselves or others before NSF on
                                                      Register in the next reporting period.



Semiannual Report Number 15                      57            NSF Office of Inspector General
                                                    the reliability of the information in NSF’s
Monitoring Human Subjects
Research                                            database. NSF issued an update to the
                                                    Proposal and Award Manual that described
In an inspection reported in Semiannual
                                                    the current process for reviewing and
Report Number 14 (page 68), we noted that
                                                    approving human subjects research and stated
several awards described human subjects
                                                    that it was changing the paper version of the
research, but NSF’s proposal jackets did not
                                                    “Action Processing Form” to be consistent
contain the required information documenting
                                                    with the revised language in the Proposal and
NSF’s review of that research. During a
                                                    Award Manual.
recent inspection, we learned from the
institution that it was tracking five NSF           Some Foreign Social Scientists May
awards because human subjects were                  Experience Difficulty in Obtaining
involved. When we reviewed NSF’s award              U.S. Work Visas
jackets, we found that several did not contain      NSF often employs “visiting scientists” to
the information required to document NSF’s          assist in its work. Most scientists who work
review and approval of the human subjects           at NSF are U.S. citizens, and those who are
research. Our queries to NSF’s electronic           not are required to certify that they possess an
database showed that some of these projects         appropriate visa from the Immigration and
had not been properly recorded as involving         Naturalization Service (INS) before they can
human subjects research. We found that              be hired. During this reporting period, OIG
NSF’s Proposal and Award Manual did not             extended an offer of employment to a
provide program officers with up-to-date            Canadian sociologist to assist in a study of
instructions for reviewing and approving this       misconduct in science policies and procedures
research. Also, unlike NSF’s electronic             at American universities. The problems
version of the “Action Processing Form,” the        associated with hiring this scientist identified
paper version of this form that is placed in        effects of recent trade legislation that were
proposal jackets, did not contain information       apparently unanticipated by NSF.
about NSF’s review of the human subjects
research. We informed NSF of the problems
we encountered and expressed concern about




Semiannual Report Number 15                    58             NSF Office of Inspector General
The North American Free Trade Agreement            We recommended that HRM train a member
(NAFTA), which became effective on                 of its staff to provide services in support of the
January 1, 1994, controls the entry of             employment of foreign nationals or, in the
Mexican and Canadian citizens into the United      alternative, notify both prospective employees
States. NAFTA, and its implementing                who are not U.S. citizens and NSF’s operating
regulations, specify the occupations of persons    units that responsibility for obtaining visas that
who can be admitted into the United States for     permit U.S. employment is fully that of the
temporary employment with a “Trade-                prospective employees. We also
NAFTA” (TN) visa issued by INS. “Social            recommended that HRM notify NSF program
scientists” are not included on that list. As a    staff, particularly in SBE, that NAFTA does
result, the sociologist, who had received a        not include social scientists in the list of
written offer of employment from NSF, was          occupations eligible for employment in the
denied a TN visa at the United States-Canada       United States.
border by INS. This individual’s situation
                                                   Because NSF does not regularly hire
was ultimately resolved, but we expressed
                                                   noncitizens, HRM declined to train a member
concern to NSF’s Division of Human
                                                   of its staff to handle the entry of foreign
Resources (HRM) about NAFTA’s effects on
                                                   nationals who have been offered employment
NSF’s ability to hire foreign nationals—
                                                   at NSF. HRM has identified key Office of
particularly in the Directorate for Social,
                                                   Personnel Management and INS staff who can
Behavioral, and Economic Sciences (SBE).
                                                   provide advice on these matters. HRM also
                                                   agreed to notify NSF staff about possible
                                                   problems associated with hiring Mexican and
                                                   Canadian citizens and to clarify NSF’s
                                                   employment documentation so that all offers
                                                   of employment to Mexican and Canadian
                                                   nationals are contingent upon obtaining an
                                                   appropriate visa from INS.




Semiannual Report Number 15                   59             NSF Office of Inspector General
INSPECTIONS
Our inspections are on-site reviews conducted        We completed four inspections during this
at NSF or at organizations that receive NSF          reporting period: one was of an NSF
funding. Inspection findings and                     Experimental Program to Stimulate
recommendations highlight what works well            Competitive Research (EPSCoR) Award in
and identify problems or deficiencies so that        the southeast, one was an Urban Systemic
managers at NSF and the funded organization          Initiative (USI) at a public school system in
can improve their operations and better              the midwest, and two were at public
achieve research and education goals.                universities in the south-central region and in
Inspection teams look for early indications of       the northeast. Awards from the Directorates
financial, administrative, or compliance             for EHR; Biological Sciences (BIO); and
problems so they can be addressed before they        Geosciences served as the bases for our
become so serious that their resolution              inspections.
requires an audit or investigation.
                                                     All of these inspections began after October 1,
We designed our inspections program to               1995, which was the effective date of NSF’s
improve our understanding of NSF’s grantee           Investigator Financial Disclosure Policy.
activities by integrating financial,
administrative, and program analyses in a
single review. We view inspections as an
effective approach because they allow us to
determine whether NSF’s program goals are
being achieved as well as review the financial
and administrative management of NSF
awards. Inspections are conducted by
multidisciplinary review teams that may
include scientists, engineers, auditors,
computer specialists, investigators, lawyers,
and management/program analysts.




Semiannual Report Number 15                     60            NSF Office of Inspector General
Inspection of an NSF Experimental                          financial, administrative, and performance
Program to Stimulate Competitive                           management with an aim to identify problems
Research
                                                           unique to EPSCoR in complying with
NSF’s EPSCoR Program makes awards to                       applicable federal and NSF requirements. Our
universities in 18 states1 and the Common-                 review was based on four grants awarded by
wealth of Puerto Rico under an annual                      NSF’s Directorate for EHR through NSF’s
operating budget of about $36 million.                     EPSCoR Office. These grants totaled about
Between FYs 1980 and 1995, NSF’s total                     $5.5 million and included a planning grant, a
funding to all of its EPSCoR programs was                  2-year continuing grant that supported two
about $153 million. The National Science                   research components in the biological
Foundation Authorization Act of 1988 limits                sciences, a 3-year continuing Advanced
eligibility to those states that “(1) historically         Development Program (ADP) award that
have received relatively little Federal research           supported eight research clusters, and an
and development funding; and (2) have                      Industry Graduate Research Traineeship
demonstrated a commitment to develop their                 (GRT) award. We concentrated our review
research bases and improve science and                     on the current ADP award that supports 59
engineering research and education                         targeted faculty in 8 interdisciplinary groups of
program[s] at their universities and colleges.”            researchers, called research clusters. Under
                                                           the ADP award, this State’s EPSCoR
The focus of this inspection was one of the
                                                           Committee supports four research clusters at
first five states to receive funding in 1980 at
                                                           each of two State universities. One university
the inception of NSF’s EPSCoR Program.
                                                           (university one) acts as the fiscal agent for the
We examined the organization and operations
                                                           State EPSCoR Program, and the other
of this State’s EPSCoR Program, including
                                                           university (university two) is considered a
the State EPSCoR Committee and the State
                                                           subawardee.
EPSCoR Program Office. We focused on



1These states are Alabama, Arkansas, Idaho, Kansas,
Kentucky, Louisiana, Maine, Mississippi, Montana,
Nebraska, Nevada, North Dakota, Oklahoma, South
Carolina, South Dakota, Vermont, West Virginia, and
Wyoming. Source: 1995 NSF EPSCoR Program
Solicitation (NSF 95-41).


Semiannual Report Number 15                           61            NSF Office of Inspector General
The State EPSCoR Committee has a unique                We concluded that the strategic institutional
and challenging role in coordinating and               goals for research competitiveness at the
ensuring the success of the State EPSCoR               participating institutions implement the State’s
Program. The Committee consists of                     faculty development goals for NSF’s EPSCoR
academic, State government, and private                awards. Further, as measured by the number
sector representatives, and is responsible for         of new doctoral research programs since
coordinating the state-wide EPSCoR Program             NSF’s first EPSCoR awards to this State, the
and for conducting a peer review process to            two participant universities have improved
screen proposals submitted by PIs in the State.        their research competitiveness. We found the
The goals of the EPSCoR Committee are                  PIs, the other targeted faculty members,
essentially the ultimate goals of the federal          postdoctoral fellows, as well as graduate and
EPSCoR Program. This State’s major                     undergraduate students in each cluster made
objectives in attaining full competitiveness in        up a cohesive interdisciplinary research unit.
science and engineering are faculty develop-           The faculty and other members of the research
ment, human resource development (HRD),                clusters told us their laboratories met their
and bridging state/university/industry science         needs for instrumentation, computers and
and engineering interests.                             space, and they described their research
                                                       laboratories as clean and well-maintained. We
In our interviews with State EPSCoR
                                                       confirmed this assessment during our visits to
Committee members, including the current
                                                       the laboratories and determined that the
Chair, the EPSCoR Project Director,
                                                       environments within the eight research clusters
university administrators, and participating
                                                       and the institutional environments are likely to
faculty members, there was general agreement
                                                       maximize the productivity of NSF’s funds for
that all three overall goals had been
                                                       research and education. It is also plausible to
successfully addressed. However, there was a
                                                       predict positive effects of these environments
strong feeling that the goals of faculty
                                                       on the State’s goal of bridging state/university/
development and HRD had been more fully
                                                       industry relations, provided that the State and
addressed than bridging state/university/
                                                       industry within the State had ready access to
industry interests. Plans were underway to
                                                       or participated in the cluster research.
emphasize this latter objective.



Semiannual Report Number 15                       62            NSF Office of Inspector General
We were impressed with the numerous                   technology policy issues will also be included,
programs and the range of activities that are         and the degree to which these are
actively managed by the State EPSCoR                  accomplished will form the basis of future
Program Office to increase the number of              EPSCoR support. To ensure that all parties
individuals who pursue careers in science,            understand the exact terms of these measures,
mathematics and engineering. The State                the NSF EPSCoR staff has required that
EPSCoR Program Manager’s personal com-                representatives from the participating
mitment and keen interest in recruiting and           universities, the Chair of the State’s EPSCoR
retaining members of underrepresented groups          Committee, and a representative of the fiscal
provides exceptional motivation and                   agent sign the cooperative agreement to be
enthusiasm for achieving the HRD goals of the         used in making the next award.
State’s EPSCoR awards.
                                                          Administrative Compliance Review
  Measures of Accomplishment for NSF’s                We concentrated on those areas of
           EPSCoR Program
                                                      administrative compliance that were most
We recommended that NSF’s EPSCoR Office
                                                      closely related to the conduct of research, that
establish with the State EPSCoR Committee
                                                      is, misconduct in science and investigator
mutually agreed-upon overall measures of
                                                      financial disclosure; and, at university two, we
accomplishment for NSF’s EPSCoR awards.
                                                      limited our review to these areas. Because

In response, the Assistant Director for EHR           university one is the fiscal agent for NSF

said that the NSF EPSCoR staff and the State          EPSCoR awards, we also assessed its

EPSCoR Program’s leaders have mutually                compliance with requirements for lobbying

agreed-upon benchmarks of achievement for             certification and reporting, spoke with officials

the research clusters that will be addressed          about drug-free workplace and equal

specifically in the State’s EPSCoR award. In          employment opportunity, and determined that

addition, the required use of external science        university one has adequate policies and

and technology advisory boards will help              procedures in place in these areas. We also

establish standards of research quality and           focused on the affirmative action aspects of

productivity for the EPSCoR-supported                 this NSF EPSCoR Program.

research clusters. Broad-based science and



Semiannual Report Number 15                      63            NSF Office of Inspector General
Both universities had conflict-of-interest            inspection, we believe our experience and the
policies and financial disclosure systems that        comments we received from the State
met the requirements of NSF’s Investigator            EPSCoR staff about their experience with the
Financial Disclosure Policy. We commended             NSF contractor provide sufficient basis for
both universities for implementing timely,            concern. We recommended that NSF’s
complete, and clearly described disclosure            EPSCoR Office look into the concerns raised
systems.                                              in our report about the schedule and
                                                      procedures used by the contractor to collect
  Misconduct in Science and Engineering
                                                      NSF EPSCoR program data; how these data
We found that both institutions had policies
                                                      are subsequently categorized and presented;
and procedures in place for handling allega-
                                                      and the overall quality of the data that are
tions of misconduct in science. We did make
                                                      being collected and maintained.
recommendations to university two to
strengthen its policy.                                The Assistant Director for EHR agreed that
                                                      the collection of quantitative information
       Data Collection and Retention
                                                      needed to monitor and assess EPSCoR
University two agreed with our
                                                      programs should, to the extent possible, be
recommendation to develop and issue an
                                                      collected within a reasonable time. Upon his
official policy governing access and retention
                                                      instructions, the EPSCoR staff have reviewed
of research records within 90 days of receipt
                                                      the current data collection schedules and
of the final NSF/OIG report.
                                                      report that the programmatic data collected
    NSF Data on the EPSCoR Program                    each year have adequate “lead times.” Special
As a result of our review of the EPSCoR               requests, however, for detailed program
Program, we were concerned about the quality          information from Congress, the Office of
of communication among NSF, NSF’s data                Science and Technology Policy, and NSF
collection contractor, and the State EPSCoR           management often require a “drop everything
Program office staff; we were also concerned          else-do it now” mentality that is a new
about the resultant quality of management             experience for the EPSCoR participants. The
information supporting the ADP HRD.                   EPSCoR initiative is a highly visible
Although we did not review or assess NSF’s            congressional initiative that places special
EPSCoR data collection process in this                demands on the NSF staff that administers it


Semiannual Report Number 15                      64            NSF Office of Inspector General
and the participants who benefit from its             Inspection at a Public School System
existence. The Assistant Director for EHR             in the Midwest
said he has instructed the NSF EPSCoR staff           This inspection was based on a cooperative
to redouble its efforts to develop a reporting        agreement made by NSF’s EHR in support of
system that is less onerous to its customers,         an USI. The overall purpose of the USI
yet capable of meeting external reporting             program, in the words of the program
pressures.                                            announcement, is to change the system of
                                                      education that has left urban students ill-
             Financial Controls
                                                      equipped with “the scientific and mathematical
We limited the scope of this portion of the
                                                      literacy to participate fully in a technological
inspection to testing accounting and
                                                      society.” USI awards are supposed to
administrative controls related to the ADP
                                                      coordinate changes in policies, curriculum,
award at both universities. Both universities
                                                      and instructional practices of the public
generally complied with NSF’s award
                                                      schools and mobilize community leaders and
documents, the Grant Policy Manual, the
                                                      institutions to improve student achievement,
Grant General Conditions, and other federal
                                                      especially for members of traditionally
requirements. Both universities appeared to
                                                      underserved groups.
have effective accounting systems to record
the substantial cost-sharing required by NSF’s        NSF program officials are actively involved in
EPSCoR Program. Although we also found                managing this award. They seek to spur the
that university one appeared to have adequate         school system’s administrators to develop an
control over university two’s (the subawardee)        articulated strategy for systemic reform by
financial expenditures for the EPSCoR award,          posing hard questions about project plans, and
we recommended that these controls be                 they monitor project results closely. NSF
formally spelled out in a written subcontract         officials leave project executives room to
agreement, and the university agreed to do            exercise judgment, but can be directive about
this. We also identified three instances of           project management, especially when officials
noncompliance and internal control                    believe that research yields clear conclusions
weaknesses at university one for which we             about whether a reform strategy is effective.
made corrective recommendations.                      Although NSF officials had made several
                                                      controversial decisions that affected project


Semiannual Report Number 15                      65             NSF Office of Inspector General
operations, we were impressed that project            the USI award’s purposes. We recommended
executives, though they had some complaints,          that, if the public school system and NSF
were generally happy with the way NSF                 wished to continue treating these salaries as
managed the project. In some cases, school            cost sharing, the school system would need to
system officials said that NSF pressure had           improve existing documentation to
enabled them to redirect their efforts in ways        demonstrate that these salaries are allowable
that were programmatically beneficial,                cost sharing. However, we noted that in our
observing that it would have been politically         opinion, regardless of whether these salaries
impossible to effect these changes without            are allowable as cost sharing, the costs of
such pressure.                                        treating them as cost sharing and generating
                                                      the necessary documentation to support this
              Financial Controls
                                                      treatment may outweigh the benefits. The
The public school system generally complied
                                                      public school system responded that it
with the cooperative agreement’s terms and
                                                      eliminated teachers’ salaries from its cost-
conditions as well as NSF’s and other federal
                                                      sharing report and submitted a revised
award requirements. We made
                                                      schedule of promised cost sharing to NSF
recommendations to increase compliance and
                                                      after the inspection.
strengthen internal controls in several areas.
                                                      We also recommended to NSF that EHR and
   Cost Sharing. The public school system
                                                      DGA ensure that all future awards and
identified teachers’ salaries as the source of
                                                      amendments reflect only the cost-shared
almost all of the $11.4 million it proposed in
                                                      amounts that are eligible in accordance with
cost sharing for the cooperative agreement
                                                      OMB Circular A-110 and that meet the USI
without demonstrating how the teachers’
                                                      program objectives. The Assistant Director
efforts contributed to the USI award’s goals.
                                                      for EHR responded that he intends to comply
Teachers’ salaries are routine operating
                                                      with the recommendation and has directed
expenses to the school district and do not
                                                      NSF’s Division of Educational System
necessarily represent either an increased
                                                      Reform to work with DGA to ensure
commitment to the cooperative agreement’s
                                                      compliance on all existing and future USI
objectives or the leveraging of other funds
                                                      awards. NSF’s Chief Financial Officer
available to the school system to help further
                                                      responded that the program solicitation and


Semiannual Report Number 15                      66            NSF Office of Inspector General
cooperative agreement provided sufficient                      PI Financial Disclosure Policy
guidance on cost-sharing requirements. He               School system officials were unaware of
noted that NSF program officials and DGA                NSF’s Investigator Financial Disclosure
officials will continue to review proposed cost         Policy, and the school system’s conflict-of-
sharing for eligibility, ensure that the sources        interest policy did not meet the requirements
and proposed uses are carefully documented,             described in NSF’s Policy. We referred
and require that cost sharing be certified and          school system officials to NSF’s Office of
signed annually by an authorized organization           General Counsel for guidance. In consultation
representative.                                         with that Office, the school system responded
                                                        that it has developed procedures to comply
   Participant Support Costs. The public
                                                        with NSF’s Policy. The school system had not
school system appeared to be behind schedule
                                                        submitted the required certification regarding
in its spending for participant support
                                                        investigator financial disclosure along with its
activities. We attributed underspending in this
                                                        May 1996 funding increment request, and we
category to changes in program activities,
                                                        informed school system officials that NSF’s
entry of an inaccurate expenditure target in the
                                                        policy requires that certification be made
accounting records, and incorrect
                                                        before the next increment of funding can be
identification of budgeted “other direct costs”
                                                        awarded.
as “participant support costs.” After our
inspection, the public school system                    Authorized Organizational Representative
reclassified some of its inaccurately recorded          Authorized Organizational Representatives
participant support costs and revised its               (AORs) are responsible both for ensuring that
schedule for participant support costs to               institutions adhere to NSF’s award terms and
reflect actual participant support activities.          conditions and for making certifications of
                                                        compliance with federal rules regarding debt
                                                        status, debarment and suspension, drug-free
                                                        workplace, lobbying activities, and also with
                                                        NSF’s Financial Disclosure Policy. The
                                                        official the school system designated as the
                                                        AOR to NSF did not understand the
                                                        responsibilities his position entailed. We


Semiannual Report Number 15                        67              NSF Office of Inspector General
recommended that, because the school                    Inspection at a State University in the
system’s AOR has other leadership                       South-Central Region
responsibilities that preclude him from giving          This inspection was based on 11 NSF awards.
the AOR position the attention it requires, the         NSF’s BIO made 10 basic research awards,
school system should name a different official          and NSF’s EHR awarded 1 GRT grant.
to be AOR. The school system responded that
                                                                      Financial Controls
it had done so after this inspection. We also
                                                        The university generally complied with NSF’s
recommended that NSF’s Division of
                                                        and other federal award requirements. We
Contracts, Policy, and Oversight establish and
                                                        made recommendations to increase
disseminate to grantees additional guidelines
                                                        compliance and to strengthen internal controls
regarding the role of the AOR. NSF’s Chief
                                                        in several areas.
Financial Officer stated that the existing
guidance on AORs in the Grant Policy Manual                Unallowable Charges. The university
was sufficient, but agreed that NSF should              charged employees’ and local participants’
assist grantees in fully understanding the              meal costs to an NSF grant. These meals
importance of an AOR position when there are            were not an integral part of a meeting or
indications that a problem may exist. He also           conference. The university agreed that
said that the Division of Contracts, Policy, and        charges to the grant for these meals were
Oversight will emphasize the importance of              unallowable costs. The university said that its
grantee designation of AORs in its outreach             policy for employee meals is consistent with
programs for new and inexperienced grantees.            and supportive of NSF’s requirements and
                                                        noted it has made the appropriate credits and
                                                        adjustments to the general ledger and the
                                                        Federal Cash Transactions Report, as we
                                                        recommended.




Semiannual Report Number 15                        68             NSF Office of Inspector General
   Personnel Activity Reports. The university            students at minority institutions would be
did not require Personnel Activity Reports               targeted for GRT recruitment, of the seven
(PARs) for graduate students that receive                institutions visited for recruitment purposes,
traineeships under a GRT grant. These                    none were minority institutions. We
traineeships provide stipends and a cost of              recommended that the university ensure that
education allowance and allow graduate                   the PI and co-PIs for this award focus on
students to participate, as research assistants,         recruiting minorities for the five unfilled
with senior investigators in scientific and              positions, document their efforts to establish
engineering research. Also, the university’s             long-term relationships with colleagues at
PAR payroll distribution system was only                 minority institutions, and include several
updated to reflect significant changes in work           minority institutions in future recruitment
distribution; it did not provide an annual after-        visits as promised in their proposal. The
the-fact confirmation report of its PAR payroll          university responded that the PI and co-PIs on
distribution system as required by OMB                   this award had dedicated considerable effort to
Circular A-21. The university agreed with our            recruiting female and minority students at all
recommendations to complete PARs for                     levels to participate in “enhanced training . . .
graduate research assistants, student teaching           at the university.” The university stated that,
assistants, and graduate assistants and has              because these efforts have not been as
modified its annual certification report form to         successful in attracting minority undergraduate
provide space for the date of the certification.         students as they have been in attracting female
                                                         students, the PI and co-PIs intend to follow
            Minority Recruitment
                                                         our recommendation and focus additional
One objective of the GRT program is to build
                                                         effort on minority recruiting.
an infrastructure that is capable of promoting
and sustaining an increased flow of
underrepresented minorities, women, and
disabled students into graduate study. The
PIs’ efforts to recruit minority students as
trainees under the award were less than the
PIs had described in their proposal. For
example, although the proposal indicated that


Semiannual Report Number 15                         69             NSF Office of Inspector General
            Misconduct in Science                       NSF provided institutions with guidance
The university’s policy for handling allegations        regarding standards to be applied, especially
of misconduct in science was more complete              with respect to the level of intent and
in its description of the individuals covered           evaluation of seriousness.
than other policies we have reviewed. For
                                                                   Other Recommendations
example, it correctly provides for processing
                                                        • The university concurred with our recom-
allegations against not just faculty but also
                                                          mendation that it issue a written policy on
against staff, postdoctoral scholars, graduate
                                                          the retention of research records and that
students, or undergraduate students.
                                                          the policy be distributed to its faculty mem-
However, the policy did not explicitly discuss
                                                          bers. It indicated it will develop a policy
issues that must be addressed when assessing
                                                          after it finishes collecting information and
whether misconduct has occurred. We made
                                                          reviewing models from other institutions.
recommendations to strengthen the policy and
broaden its visibility. For example, we                 • In this inspection and a prior one, we found
recommended that the university consider                  that there were students who were being
including an evaluation of seriousness and an             supported by NSF’s Research Experiences
appeals process in its misconduct procedures              for Undergraduates program who did not
and that it specify the level of intent and the           meet the U.S. citizen or permanent resident
standard of proof required for a finding of               eligibility requirements. NSF’s Assistant
misconduct in science. We also recommended                Director for BIO said in response that she
that the university reference its policy in               planned to recommend that BIO require that
appropriate university issuances, ensure that             all Program Officers contact the PI before
all personnel supported by research grants are            award notification and reiterate the
informed of the policy, and consider ways to              eligibility criteria.
inform students of their rights and
responsibilities. The university agreed with
our recommendations and noted it will review
and consider revising its policy and will
increase awareness of the policy. The
university also said that it would be useful if



Semiannual Report Number 15                        70             NSF Office of Inspector General
Inspection at a State University in the                   Misconduct in Science and Awareness of
Northeast                                                        Ethical Issues in Science
                                                         The deficiencies in the university’s policies and
This inspection included eight NSF grants
                                                         procedures for handling allegations of
made by NSF’s Directorate for Geosciences.
                                                         misconduct in science were so numerous that,
All were basic research awards from the
                                                         in contrast to our usual practice, we would not
Division of Atmospheric Sciences for the
                                                         be able to defer to the university an inquiry or
study of the earth’s climate and upper atmos-
                                                         investigation into allegations against an NSF-
phere. Our inspection focused on an institute
                                                         supported faculty member or student. For
at the university. The institute’s mission is to
                                                         example, the university’s procedures provided
bring together faculty members with different
                                                         for two inquiries in every case. After the first
specialties to foster interdisciplinary collabo-
                                                         inquiry’s determination that an allegation had
rative research. To do this, the institute is
                                                         substance, a second inquiry committee would
located in a separate building and has its own
                                                         be formed to further evaluate the allegation
budget and support staff. To encourage broad
                                                         without any notification of NSF. If the second
acceptance of the institute, all of the institute
                                                         inquiry found substance, the matter could be
faculty members remain affiliated with a
                                                         adjudicated, including sanctions imposed,
department, even when they are housed in the
                                                         without an investigation and without
institute. In this way, the institute remains
                                                         notification of NSF. Further, if NSF referred
closely tied to the broader university
                                                         an allegation of misconduct in science to the
department structure, while providing an
                                                         university, it is not clear whether a substantive
environment that successfully encourages
                                                         allegation might be adjudicated without a full
interdisciplinary research.
                                                         investigation and an adequate investigation
                                                         report to NSF that contained sufficient
                                                         information to evaluate the proceedings,
                                                         including any sanctions imposed. In addition,
                                                         the policy did not specify a standard of proof
                                                         to be used during an investigation and did not
                                                         include any protection of complainants from
                                                         retaliation. Finally, the university did not



Semiannual Report Number 15                         71             NSF Office of Inspector General
articulate a general definition of misconduct in        education, and it will continue efforts to
science but, instead, only listed examples of           increase this awareness among both students
misconduct. Most of the faculty members we              and faculty members.
spoke with were aware that the university had
                                                               Data Retention and Collection
a policy but were not familiar with its contents
                                                        The university had only a draft policy on The
or where the policy was located, while NSF-
                                                        Ownership and Retention of Research Data.
supported students were unaware of a policy.
                                                        From previous and unrelated interactions with
As a result of our recommendations, the
                                                        this university, we knew that this policy has
university stated that it intends to draft a new
                                                        been in draft form since at least 1994. We
policy that will conform to NSF’s regulation
                                                        recommended that the university officially
for handling allegations of misconduct in
                                                        adopt and then widely disseminate its final
science, and that, when final, the new policy
                                                        policy. The university stated that it will
will be widely distributed to the university
                                                        proceed with final discussions and
community.
                                                        promulgation of its draft policy and, when
The faculty members we interviewed were not             final, the policy will be widely and frequently
aware of any university initiative to assist            distributed.
faculty members or students with issues
                                                                       Financial Controls
related to the ethics of science and engineering
                                                        The university generally complied with NSF’s
practices. We recommended that the univer-
                                                        and other federal award requirements. How-
sity take the lead in increasing faculty and
                                                        ever, we did identify two instances of
student awareness of ethical issues in science,
                                                        noncompliance for which we made recommen-
and, since the inspection, the university has
                                                        dations for corrective action. The university
recognized nine courses, ranging from first
                                                        inappropriately allocated costs on one NSF
year to upper level, that are designed to
                                                        grant and could not explain its method of
heighten student awareness of ethical issues in
                                                        allocating costs to another NSF grant. The
science. Also noted in the response was that
                                                        university acknowledged that PIs must
one college within the university offers several
                                                        allocate grant costs based on the proportional
graduate seminars that address ethics and
                                                        benefit that each grant receives and agreed
social issues in science. The University stated
                                                        with our recommendation to inform all PIs
that it recognizes the importance of ethics


Semiannual Report Number 15                        72            NSF Office of Inspector General
about appropriate cost allocation methods.
The university’s administrative personnel did
not have a suitable means of verifying
employees’ work as reported on their PARs.
Administrative personnel who signed PARs
included a departmental secretary and business
managers who did not supervise the
employees and did not have first-hand
knowledge of the employees’ scientific work.
For example, at the end of a semester, 1
business manager signed PARs for over 100
employees, and another manager signed for 60
employees. We recommended that the
university have the actual employee; the PI; or
someone who is familiar with, and involved in,
the research project sign the PARs. The
university responded that it does require that
the individual who signs the PAR be
knowledgeable about the effort of the person
compensated. In some cases, PIs have desig-
nated their signature authority to individuals,
typically business managers, who are
intimately familiar with their research projects
and the effort expended on those projects.




Semiannual Report Number 15                        73   NSF Office of Inspector General
Audit Reports Issued With Recommendations
for Better Use of Funds


                                                                                  Dollar Value

A. For which no management decision has been made by the                           16,535,000
   commencement of the reporting period

B. Recommendations that were issued during the reporting                           33,193,481
   period (these were issued in eight reports)

Subtotal of A+B                                                                    49,728,481

C. For which a management decision was made during the                             12,343,381
   reporting period

   (i) dollar value of recommendations that were agreed to by
       management

       based on proposed management action                                          8,683,381

       based on proposed legislative action                                                   0

   (ii) dollar value of recommendations that were not agreed to                     3,660,000
        by management

D. For which no management decision had been made by the                           37,385,100
   end of the reporting period

Report for which no management decision was made within 6                           8,025,000
months of issuance




 Semiannual Report Number 15                   74           NSF Office of Inspector General
Audit Reports Issued With Questioned Costs


                                                        Number      Questioned      Unsupported
                                                                         Costs            Costs
A. For which no management decision has been made             63     9,488,544            3,812,974
   by the commencement of the reporting period

B. That were issued during the reporting period               28       493,919             303,920

C. Adjustments to questioned costs resulting from               2           700                 18
   resolution activities
Subtotal of A+B+C                                             93     9,983,163            4,116,912
D. For which a management decision was made during            20       372,147              17,567
   the reporting period
       (i) dollar value of disallowed costs                 N/A        188,806                 N/A

       (ii) dollar value of costs not disallowed            N/A        183,341                 N/A

E. For which no management decision had been made             73     9,611,016            4,099,345
   by the end of the reporting period
Report for which no management decision was made              45     9,117,097            3,795,425
within 6 months of issuance




Semiannual Report Number 15                        75   NSF Office of Inspector General
Additional Performance Measure


As required by the Inspector General Act of 1978, we provide tables in each Semiannual Report to
the Congress that give statistical information on work conducted by our audit and investigation units.

Tables that provide statistics concerning these required performance measures are on pages 29, 32,
67, and 68. GAO and OMB suggested that Offices of Inspector General develop additional
performance measures that provide information about their activities. As a result, we developed an
additional performance measure to better explain the work of our office.

OIG staff members regularly review NSF’s internal operations. These reviews often result in
systemic recommendations that are designed to improve the economy and efficiency of NSF
operations.

We routinely track these systemic recommendations and report to NSF’s Director and Deputy
Director quarterly about the status of our recommendations. The following table provides statistical
information about the status of all systemic recommendations that involve NSF’s internal operations.
The statistics demonstrate that NSF management has generally agreed to resolve our systemic
recommendations in a reasonable manner.




Semiannual Report Number 15                      76          NSF Office of Inspector General
Status of Systemic Recommendations
That Involve Internal NSF Management


Open Recommendations

Recommendations Open at the Beginning                                       59
of the Reporting Period

New Recommendations Made During                                             17
Reporting Period

Total Recommendations to be Addressed                                       76

Management Resolution2 of Recommendations

Recommendations Awaiting                                                    15
Management Resolution

Recommendations Resolved by Management                                      61

    Management Agrees to Take Reasonable Action                             76

    Management Decides No Action is Required                                 0


Final Action3 on OIG Recommendations

Final Action Completed                                                      29

Recommendations Open at End of Period                                       47




2 “Management Resolution” occurs when management completes its evaluation of an OIG
recommendation and issues its official response identifying the specific action that will be
implemented in response to the recommendation
3 “Final Action” occurs when management has completed all actions it had decided are

appropriate to address an OIG recommendation.

Semiannual Report Number 15                     77        NSF Office of Inspector General
Aging of Open Recommendations

Awaiting Management Resolution:

   0 through 6 Months                                                       15

   7 through 12 Months                                                        0

   more than 12 Months                                                        0

Awaiting Final Action After Resolution

   0 through 6 Months                                                         2

   7 through 12 Months                                                      19

   13 through 18 Months                                                       6

   19 through 24 Months                                                       0

   more than 24 Months                                                        5


Recommendations Where Management Decides
No Action Is Required

None to report during this period.

Recommendations Awaiting Management Resolution
for More Than 12 Months
None to report during this period.

Recommendations Awaiting Final Action for More Than 24 Months
Report Title                       Date                           Issue
Review of NSFNET                 03/23/93   Audit of Infrastructure Account
NSF Ethics Regulation            03/31/93   Issuance of Final Regulation
Integrity of Confidential        09/29/93   Issuance of Formal Guidance
Peer Review Process                         in Writing
Review of Proposal               09/27/94   Ability to Provide Proposal
Processing Times                            Status Electronically



Semiannual Report Number 15                   78          NSF Office of Inspector General
List of Reports
                                                    NSF and CPA Performed Reviews




Number        Subject                               Questioned      Unsupported         Better Use
                                                         Costs            Costs          of Funds
96-1029       Private Research Organization                   0                  0              0

96-1030       Museum                                      1,506                  0              0

96-1031       Private Nonprofit Organization           337,377            283,173               0

96-1032       Participant Support at Midwest            64,633                   0              0
              University
96-6003       Educational Nonprofit Corporation           1,000                  0              0

96-6004       Small Business Grantee                          0                  0         20,000

96-6005       Small Business Grantee                          0                  0        126,000

96-6006       Small Business Grantee                          0                  0         75,600

96-6007       Small Business Grantee                          0                  0         43,600

96-6008       Federally Funded Research and                   0                  0        666,900
              Development Center

96-6009       Small Business Grantee                          0                  0              0

96-6010       Small Business Grantee                          0                  0         28,000




Semiannual Report Number 15                    79     NSF Office of Inspector General
Number     Subject                               Questioned     Unsupported          Better Use
                                                      Costs           Costs           of Funds

96-2109    International Phase of ODP                     0                  0                 0


96-2110    Management Trust Fund                          0                  0                 0
           Financial Report for Fiscal Year
           Ending 9/30/95


96-2111    Fees Paid to Nonprofit Institution             0                  0                 0
           From Other Agencies

96-2112    Contractor’s Worker                            0                  0             58,381
           Compensation Claims

96-2113    Review of Contract Awarded for             4,054                  0                 0
           Support Services

96-2114    Donation or Sale of Excess                     0                  0        1,375,000
           Computer Equipment

96-2115    Recommended Amendments to                      0                  0       20,000,000
           NSF Procedures to Avoid Paying
           Costs Associated with State Sales
           Taxes

96-2116    Tariff Duties on Telescope                     0                  0        1,100,000
           Project

96-2117    Electronic Information                         0                  0        7,500,000
           Dissemination as a Goal Under
           GPRA




Semiannual Report Number 15                     80       NSF Office of Inspector General
                                                         NSF Cognizant Audits



Number      Subject                                   Questioned          Unsupported
                                                           Costs                Costs
96-4047     Federally Funded Research and                         0                  0
            Development Center
96-4048     Science Council                                       0                  0

96-4049     Nonprofit Research and                                0                  0
            Conservation Organization
96-4050     Space and Science Foundation                          0                  0

96-4051     Research Institute                                    0                  0

96-4052     Teachers Association                                  0                  0

96-4053     Science Institute                                     0                  0

96-4054     Research Institute                                    0                  0

96-4055     Nonprofit Educational Organization                    0                  0

96-4056     Federally Funded Research and                         0                  0
            Development Center
96-4057     Teachers Association                                  0                  0

96-4058     Nonprofit Communication Organization                  0                  0

96-4059     Science Museum                                  25,036                   0

96-4060     Educational Center                                    0                  0

96-4061     Research Corporation                                  0                  0

96-4062     Science Society                                       0                  0

96-4063     Science Institute                               22,942               14,453




Semiannual Report Number 15                  81    NSF Office of Inspector General
Number      Subject                                        Questioned          Unsupported
                                                                Costs                Costs

96-4064     Western Museum                                            0                     0

96-4065     Research Consortium                                  1,927                      0

96-4066     Science Society                                      2,144                      0

96-4067     Research Organization                                   29                      0

96-4068     Science Institute                                         0                     0

96-4069     Educational Organization                             1,400                      0

96-4070     Nonprofit Community Organization                     1,256                      0

96-4071     Science Institute                                       87                      0

96-4072     Nonprofit Economic Research Organization                  0                     0

96-4073     Association of Colleges                              3,522                      0

96-4074     Science Society                                      2,338                   2,338

96-4075     Science Institute                                      899                      0

96-4076     Observatory                                             60                      0

96-4077     History Museum                                         781                      0

96-4078     Southwest Museum                                       715                      0

96-4079     Seismology Institute                                   397                      0

96-4080     Science Center                                       6,778                      0

96-4081     Science Institute                                         0                     0

96-4082     Science Organization                                      0                     0

96-4083     Research Corporation                                      0                     0

96-4084     Environmental Foundation                                  0                     0

96-4085     Science Organization                                      0                     0

96-4086     Education Association                                     0                     0




Semiannual Report Number 15                 82         NSF Office of Inspector General
                                                         Other Federal Audits




 Number      Subject                            Questioned              Unsupported
                                                     Costs                    Costs
 96-5165     University in the Midwest                2,693                           0

 96-5166     Association for Sciences                 2,147                           0

 96-5187     University in the Southwest                846                         846

 96-5193     University in the Southeast              2,120                           0

 96-5198     State in the West                          115                         115

 96-5210     University in the Midwest                1,350                          0

 96-5229     University in the Midwest                5,767                     5,100




Semiannual Report Number 15                83     NSF Office of Inspector General
Audit Reports With Outstanding Management
Decisions
This section identifies audit reports involving questioned costs and funds put to better use where
management had not made a final decision on the corrective action necessary for report resolution
within 6 months of the report’s issue date. At the end of the reporting period, there were 45 audit
reports with questioned costs and 5 reports with recommendations for funds to be put to better use
that were not resolved. The status of systemic recommendations that involve internal NSF
management are described on page 69.

Report                                                  Date Report         Dollar
Number                           Title                       Issued         Value       Status

Items Involving Questioned Costs
94-1038         Aurora Flight Science Corporation          08/08/94       207,482             1
94-1046         Apeldyn Corporation                        09/08/94        19,820             1
94-1067         Better Education, Inc.                     09/30/94        17,563             4
94-1070         Chemludens                                 09/30/94        72,952             4
95-1022         BBN Laboratories                           03/06/95       122,067             2
95-1028         General Atomics                            03/27/95     2,933,428             3
95-1042         Mr. Wizard Foundation                      03/31/95       157,780             3
95-1045         H-Tech Laboratories                        03/31/95        11,821             1
95-1048         Virginia State Department of               09/01/95       317,664             1
                Education
95-1051         ASA Edison Chouest Offshore, Inc.          09/15/95       646,266             3
95-4077         Playing to Win                             09/05/95        24,260             1
95-5599         University of Hawaii                       06/13/95        31,104             5
95-5645         University of Hawaii                       06/21/95          7,297            5
95-5722         State of South Dakota                      09/22/95       113,204             1
95-6003         Zoological Society of America              09/12/95            996            6
96-1002         North Carolina Department of               10/01/95       181,459             1
                Administration
96-1003         Texas Education Agency and                 11/14/95       514,268             1
                University of Texas


Semiannual Report Number 15                      84         NSF Office of Inspector General
Report                                              Date Report         Dollar
Number                          Title                    Issued         Value       Status
96-1004        New Jersey Department of                01/30/96       584,460             1
               Education
96-1008        Santa Ana Unified School District       01/09/96          3,481            1
96-1009        Society of Automotive Engineers         03/26/96        33,962             2
96-1012        Network, Inc.                           03/15/96        35,899             1
96-1014        American Educational Research           03/20/96       211,879             1
               Association
96-1015        Blackfeet Community College             03/29/96       258,955             1
96-1018        Woodrow Wilson National                 03/27/96        24,657             2
               Fellowship
96-1020        Montana State University                03/28/96        11,812             2
96-1021        Little Big Horn College                 03/28/96        67,452             2
96-1022        Civil Engineering Research              03/28/96        24,625             2
               Foundation
96-1023        Delaware State Department of            03/28/96       465,507             1
               Public Instruction
96-1024        College Board                           03/28/96       171,663             1
96-1025        Franklin Institute Science Museum       03/28/96       237,678             1
96-1026        Council for Basic Education             03/28/96       307,518             1
96-1027        Abt Associates                          03/28/96       828,915             2
96-1028        Prince George’s County Public           03/29/96       182,544             1
               Schools
96-4013        Bermuda Biological Station              03/17/96        21,605             1
96-4014        Bermuda Biological Station              03/17/96          1,500            1
96-5004        MPC Corporation                         03/27/96        64,757             1
96-5007        University of Alabama                      ¾/96             326            2
96-5016        University of Nevada System             03/06/96            242            2
               Administration




Semiannual Report Number 15                    85       NSF Office of Inspector General
Report                                                  Date Report          Dollar
Number                           Title                       Issued          Value       Status
96-5024          University of Wisconsin                    03/06/96       177,669             2
96-5034          Harvard University                         03/13/96            719            2
96-5037          American Indian Higher Education           03/25/96          1,030            2
                 Consortium
96-5040          New Mexico Mesa, Inc.                      03/20/96         18,302            2
96-5069          American University                        03/21/96                18         1
96-5108          Colby College                              03/27/96            431            2
96-5143          Grand Valley State University              03/28/96                60         1

Items Involving Funds Put to Better Use

95-1018          Logistics Issues Related to the            05/31/95     4,000,000             3
                 Antarctic Program
95-6039          Fees Paid to Nonprofit Organization        09/27/95       925,000             5
96-2106          National Bureau of Economic                03/29/96       800,000             3
                 Research
96-2104          Management Recommendations to              03/29/96     1,000,000             3
                 Office of Polar Programs
96-6001          Fees Paid to Nonprofit Organization        11/19/95     1,300,000             5

Status Codes
1 = Resolution is progressing with final action expected in next reporting period
2 = Information requested from grantee not yet received in full
3 = Resolution pending negotiations
4 = Site visit required and scheduled
5 = Another federal agency must complete work before NSF can make final
    resolution determination
6 = Grant being amended




Semiannual Report Number 15                        86        NSF Office of Inspector General
